<html>
<title> - STEMMING THE TIDE: THE U.S. RESPONSE TO TSUNAMI GENERATED MARINE DEBRIS</title>
<body><pre>[Senate Hearing 112-757]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-757
 
STEMMING THE TIDE: THE U.S. RESPONSE TO TSUNAMI GENERATED MARINE DEBRIS

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
80-375                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             MARCO RUBIO, Florida
MARK WARNER, Virginia                KELLY AYOTTE, New Hampshire


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2012.....................................     1
Statement of Senator Begich......................................     1
Statement of Senator Snowe.......................................     7
Statement of Senator Cantwell....................................     8
    Written statement of Robert E. Andrew, Mayor, City of Long 
      Beach, Washington..........................................     9

                               Witnesses

David M. Kennedy, Assistant Administrator, Ocean Services and 
  Coastal Zone Management, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    13
    Prepared statement...........................................    15
Rear Admiral Cari B. Thomas, Assistant Commandant, Response 
  Policy, U.S. Coast Guard.......................................    20
    Prepared statement...........................................    22

                                Appendix

Hon. Daniel K. Inouye, U.S. Senator from Hawaii, prepared 
  statement......................................................    37
Response to written questions submitted to David M. Kennedy by:
    Hon. John D. Rockefeller IV..................................    37
    Hon. Mark Begich.............................................    38
    Hon. Maria Cantwell..........................................    40
    Hon. Amy Klobuchar...........................................    47
Response to written questions submitted to Rear Admiral Cari B. 
  Thomas by:
    Hon. John D. Rockefeller IV..................................    48
    Hon. Mark Begich.............................................    50


STEMMING THE TIDE: THE U.S. RESPONSE TO TSUNAMI GENERATED MARINE DEBRIS

                              ----------                              


                         THURSDAY, MAY 17, 2012

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:31 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. We will call the meeting to order. This is 
the Subcommittee on Oceans, Atmosphere, Fisheries, and Coast 
Guard.
    Today's hearing is on stemming the tide of U.S. response to 
tsunami-generated marine debris.
    We thank the witnesses for being here. Welcome to we think 
an important hearing on the marine debris headed to the West 
Coast from the Japanese tragedy and its long-term implications.
    We welcome David M. Kennedy, Assistant Administrator of 
NOAA's National Ocean Service. We also welcome Rear Admiral 
Cari Thomas, Director of Response Policy for the United States 
Coast Guard. Thank you both for being here this morning.
    The earthquake and tsunami which struck northern Japan just 
over a year ago was an unprecedented human tragedy. In minutes, 
it claimed thousands of lives, destroyed complete communities, 
and touched off the failure of nuclear power plants. The 
tsunami also left a legacy which our West Coast states, 
thousands of miles from the epicenter, are dealing with now and 
will deal with for many years to come.
    Marine debris is nothing new. Flotsam and jetsam has 
existed for centuries, made worse by the proliferation of 
plastics which do not degrade. To some, like beachcombers who 
find occasional messages in the bottle, it is a delight, but to 
others it is an eyesore or worse. Many now recognize marine 
debris as a threat to fish, marine mammals and seabirds, 
through death by entanglement and ingestion.
    The tsunami unleashed debris on an unprecedented scale. 
Some 5 million tons were swept out to sea. While most quickly 
sank, NOAA estimates 1.5 million tons of tsunami-generated 
debris is still afloat and being driven by winds and currents 
toward the West Coast of North America. That is 3 billion 
pounds of mostly plastic trash which will flood into our inter-
tidal ecosystems and it is already here.
    We have read the press reports of soccer balls found on 
Middleton Island in my state and the fishing floats and 
Styrofoam insulation washing up on Kayak and Montague Islands. 
These are mostly the high windage items which float high in the 
water and are pushed by wind.
    Then there is the ghost squid boat that appeared off the 
southeast panhandle and was promptly sunk by the Coast Guard. 
And I want to thank you, Admiral, for doing that.
    And even the Harley Davidson, which washed up in British 
Columbia.
    From Alaska to Washington, the reports of tsunami debris 
are coming in, including reports of containers of hazardous 
materials such as oil and solvents. That is not surprising when 
you consider that entire cities with their gas stations, 
garages, warehouse, stores, and industrial plants all washed 
into the sea and are now becoming a threat to our shores.
    One of my constituents, Chris Pallister of the Gulf of 
Alaska Keeper, has worked on marine debris issues for most of 
the last decade. He described the tsunami debris as a slow 
motion environmental disaster that will far exceed any single 
pollution event to hit the West Coast of North America, 
including the Exxon Valdez and the Santa Barbara oil spills.
    I am submitting Pallister's letter for the record and one 
from the Juneau-based Marine Conservation Alliance Foundation, 
which has helped coordinate marine debris efforts in Alaska for 
years.
    [The letters referred to follow:]

                                                        May 2, 2012
Subject: Japanese tsunami debris disaster in the Gulf of Alaska

Senator Mark Begich
United States Senate
111 Russell Senate Office Building

Re: Japanese tsunami debris cleanup response.

Honorable Senator Begich:

    Thank you for your effort to generate a response to the Japanese 
tsunami-generated marine-debris catastrophe. Gulf of Alaska Keeper 
(GoAK) is a non-profit whose primary mission is combatting the marine 
debris (MD) issue in the northern Gulf of Alaska (GOA). We work on the 
problem full time and maintain a highly trained and competent cleanup 
crew. We have worked closely with NOAA on cleanup projects the last 6 
years and MCAF the last 7. MD is our business.
    Very few people recognize and appreciate the scale of the 
environmental disaster that is about to befoul the western United 
States coastline, particularly Alaska's. In addition to all the plastic 
and other solid debris, not many realize that millions of containers of 
hazardous material are coming our way. When you consider that entire 
cities with all their garages, auto stations, shops, warehouses, 
stores, industrial plants and everything in between washed into the 
sea, you begin to understand how many containers of chemicals went 
afloat. Most of those that did not rupture immediately, and most 
assuredly didn't, will survive their Pacific transit and will wash upon 
our high-energy shores. If they are not immediately removed, they will 
spill their contents in sensitive inter-tidal ecosystems. Over time, 
plastic debris will be UV degraded and pounded into tiny particles by 
our high-energy beaches. When that happens, plastic toxins will then be 
mobilized into the food chain, potentially harming everything in its 
path for generations.
    What we see unfolding is a slow-motion environmental disaster that 
will far exceed any single pollution event to hit the west coast of 
North American, including the Exxon Valdez and Santa Barbara oil 
spills. This is not exaggeration or hyperbole. Tens of thousands of 
miles of shoreline will ultimately be impacted by this event. Beaches 
from California to the Aleutians will be littered. Furthermore, unlike 
spilled crude, over time degraded plastic can become more dangerous to 
the environment, not less so. In addition to the billions of pounds of 
plastic debris, all which contains inherent toxic chemicals, millions 
of containers of hazardous chemicals are about to hit our sensitive 
shorelines. GoAK has warned repeatedly of the potential tsunami debris 
toxic impact and nobody appeared to listen--or at least no one that 
could make plans or act quickly. From the evidence we gathered this 
past week, the toxic spill is already occurring. This event has the 
potential to significantly damage fish and wildlife, and commercial, 
subsistence, and recreational resources for generations. We must act 
now. It does no good to ask people or agencies why they haven't already 
acted or why they don't have a plan of action in place. Instead, we 
must drive home how serious this matter is and must ask what we can do 
to help prepare for this disaster.
    At our own initiative and cost, GoAK surveyed northern Gulf of 
Alaska beaches from Cape Suckling east of Kayak Island west to the 
southern end of Montague Island. As you may have seen on the national 
news Monday evening, a staggering amount of tsunami debris has already 
landed on our beaches. Immediately upon determining that an 
environmental disaster was unfolding, we contacted the Coast Guard, the 
Alaska Department of Environmental Conservation, NOAA and the press. On 
Friday we accompanied the press to Kayak Island and on Saturday went 
with ADEC, NOAA and the Coast Guard to survey Montague, Hinchinbrook 
and Egg Islands. The amount of broken pieces and bits of Styrofoam blue 
board, white board, and urethane spray-in foam insulation from crushed 
buildings that litter the beach is nearly beyond comprehension. What we 
witnessed is truly startling and many magnitudes worse than anything I 
have ever seen . . . and marine debris is my life.
    Senator, nobody has more on-the-ground MD experience than Gulf of 
Alaska Keeper. We have been cleaning some of the dirtiest beaches in 
the United States for over ten years. I have personally surveyed 
allegedly dirty beaches in the Chesapeake Bay area, in the Florida 
Keys, in Hawaii, and Alaska. Alaska, unfortunately, wins the prize with 
the dirtiest beaches. Even more unfortunately, the northern Gulf of 
Alaska is the worst. We have closely studied this matter and presented 
at the Fifth International Marine Debris Conference in March, 2011, 
describing exactly how the tsunami debris would end up in Alaska.
    Nothing we've seen to date surprises us. The prevailing winds, 
coastal currents, deep ocean currents, tides and prevailing winter 
storm tracks all conspire to rip debris out of the Pacific and drive it 
straight into the gut of the GOA. Then, geography and topography set 
the final trap. If you look at the GOA on a map, you will realize that 
it is an inverted funnel; with the help of the prevailing winds and the 
Alaska Coastal current, immense amounts of debris are driven onto 
northern GOA beaches, such as those along Kayak and Montague Island, 
numerous islands within Prince William Sound, the Kenai Peninsula GOA 
coast, the Barren Islands, and the Kodiak Island archipelago. 
Topography then comes into play with the region's rocky, log-littered, 
brush-covered beaches, efficiently trapping any debris. The rest of the 
GOA coast from Southeast Alaska to the Aleutians will also be 
significantly impacted.
    NOAA's latest estimate is that 1.5 million tons of tsunami-
generated debris will hit the west coast of North America. That 
translates into 30 billion pounds. If only 1 percent of that reaches 
Alaska's shores, 30 million pounds of largely plastic and toxic debris 
will flood our sensitive inter-tidal ecosystem. We predict that Alaska 
will receive closer to 25 percent, or more, of the debris over a period 
of many years. The cost to remove it from our remote, inaccessible, and 
often dangerous beaches will be high. The plastic debris, particularly 
all the nearly infinite pieces of Styrofoam bits and millions of larger 
Styrofoam pieces, will be an incredible challenge to remove. However, 
of possibly greater immediate concern is all of the chemical waste 
floating onto our beaches. By law, and for obvious safety reasons, the 
millions of containers of hazardous chemicals destined for our coast 
cannot be removed by just anybody. A person must be HAZMAT certified to 
handle, transport or dispose of hazardous material. Much of what comes 
ashore will be initially unidentifiable because the labels will be gone 
or because of the language barrier. A properly trained person must deal 
with these materials. Can you imagine the scope of doing that in 
Alaska? The ADEC and the United States Coast Guard have told Gulf of 
Alaska Keeper that our cleanup crew must be HAZMAT certified which we 
will complete next week. It will be a time-consuming and expensive 
proposition to properly train and certify thousands of cleanup workers 
along the western United States. We need to get started before millions 
of pounds of hazardous material are improperly and illegally handled.
    We are not suggesting that a military type industrial response to 
this pollution event is the proper approach for cleaning it up. The 
nature of the spill requires a long-term, economically-sustainable, and 
environmentally-friendly response. The tsunami debris will wash up on 
our beaches for years. Alaska has already been hit by the first wave of 
fast-traveling material such as thousands of buoys, Styrofoam of every 
imaginable type, 50-gallon drums, fuel cans and every type of empty or 
nearly empty container imaginable. The fuller, heavier containers will 
arrive later. That means most of the toxic chemicals are not yet here; 
how much later until their arrival is anybody's guess.
    Our suggestions for responding to this environmental disaster are 
fairly straight forward. We have great faith in NOAA's Marine Debris 
Division. They have the necessary expertise and management skills to 
lead the response. However, they are seriously underfunded. Instead of 
the current proposed budget cut, NOAA's marine-debris budget should be 
substantially increased. Given the scope and the long-term duration of 
this environmental tragedy, we seriously recommend that NOAA 
immediately be given $200,000,000 to fund their marine debris grant 
program. Yes, that is 200 million dollars, to, used over 4 years. Given 
the geographic scope of this disaster and the expected long-term influx 
of tsunami-generated debris, this cleanup response will undeniably be a 
very expensive and lengthy proposition.
    We further recommend that NOAA disburse the money to qualified 
cleanup groups in the form of competitive matching grants. Because this 
is not necessarily only a Federal problem--state and private land will 
also be impacted, we further suggest that all of the grants require a 2 
to 1 match, 1 part state and 1 part non-governmental. The non-
governmental grant match could be comprised of private and corporate 
donations and in-kind contributions. Leveraging the funds in such a way 
will make the money go much further in these times of lean budgets. 
Furthermore, competitive grants will weed out the waste and 
inefficiencies associated with massive industrial-style responses. We 
believe an economically-sustainable, environmental-friendly, long-term 
cleanup response can be designed and is possible now using these ideas.
    Senator, we understand that you are calling for hearings on the 
lack of agency response to this massive environmental issue. We believe 
we have much to add to this conversation in the form of hard-earned 
experience and expertise. Nobody knows more about marine debris issues 
in the northern GOA. We would be pleased to participate in any hearings 
or help in any other way you may deem beneficial. We sincerely thank 
you for your interest and hard work on this issue. We look forward to 
hearing from you.
    Please review goak.org for more information on our organization and 
projects.
            From the front lines, sincerely,
                                           Chris Pallister,
                                                         President,
                                                 Gulf of Alaska Keeper.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Senator Begich. Since the event, NOAA's Marine Debris 
Program has closely monitored the incoming tides of debris. 
They have modeled drift patterns and tracked reports as they 
come in. I know NOAA has further plans to monitor this problem, 
but my constituents, to be very honest with you, are asking 
with this debris already here, what is the plan? And how are we 
going to deal with this and how are we going to clean it up? In 
some cases, some think it is a little late. And not just this 
summer, but over the years, this debris will be arriving to our 
shores.
    That is the purpose of today's hearing: given this clear 
threat, what is our national plan to stem the tide of the 
tsunami debris?
    And while I have heard the debris carries no threat of 
radiation since it went out to sea before the reactor failures, 
I want to ask what you know about the possible threat and 
monitoring done to date because it is a concern to many.
    But I want to emphasize the point before I call on the 
ranking member and then the Senator from Washington, we had a 
hearing probably 2 months-3 months ago. This issue came up and 
we were told things are--I do not want to say under control, 
but we are monitoring it carefully. But every time I go back to 
Alaska, I hear over and over and over again of large sightings, 
and there are photos here of some of the debris that is 
starting to wash up and it is growing rapidly. And it almost 
seems like there is a ``well, let us just see what happens'' 
plan. And that is not acceptable.
    Today at 7 a.m. Alaska time, the Copper River opening will 
occur, which means literally 6 hours later when that incredible 
fish gets caught--the salmon--it will be in the Washington 
ports for market. It is the first fish out and the highly 
prized Copper River salmon. So we fear what the impact may be.
    So we are anxious to hear not about what you are seeing 
today but what are the plans, what are the efforts aggressively 
to deal with this issue as it continues to move forward.
    Let me have the Ranking Member, Senator Snowe, make her 
comments.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. I thank you, Mr. Chairman, for convening 
this hearing today to discuss this very important topic, marine 
debris resulting from last year's devastating earthquake and 
tsunami in Japan. And I think it is important to provide this 
kind of attention and focus on this critical issue.
    On March 11, 2011, the island nation was struck by a 9.0 
magnitude earthquake causing a tsunami that resulted in 
tremendous devastation, as we all know, killing nearly 16,000 
people, with an additional 3,000 still missing and presumed 
dead. Over 200 square miles were inundated. Some waves traveled 
more than 6 miles inland, reaching a maximum height of over 100 
feet in some places. Entire communities were washed to sea.
    This disaster was far worse than what had previously been 
considered the worst case scenario. And Japan should be 
commended for their effort they put into place in preparing for 
such a disaster. Despite the tremendous loss of lives, 
countless people were saved by advanced preparation. Forty 
percent of Japan's coast was protected by sea walls and prompt 
warning of a major tsunami allowed time for many to evacuate.
    But the height of the tsunami was greater than thought 
possible. In many cases, sea walls, built to hold the sea at 
bay, were breached and washed away. Tragically at least 101 
designated evacuationsites were flooded and people who followed 
the evacuation orders and thought they had reached safety in 
time still perished. The devastation resulting from this 
horrific event demonstrates we can always do better to prepare.
    The heartbreaking job of cleaning up and rebuilding from 
the tsunami still continues in Japan and is estimated to cost 
more than $34 billion, making this the most costly natural 
disaster in history. With some communities simply gone, it is 
not always clear how the rebuilding should begin.
    Five million tons of debris were swept into the ocean as a 
result of the tsunami, much of this staying just offshore, but 
some of it, as much as 1.5 million tons, continue to float and 
was carried out to sea by the winds and currents. This debris 
includes boats, household goods, children's toys, everything 
from infrastructure to personal possessions.
    The first items to arrive in our waters were high-windage 
items, those items that float high enough in the water to be 
primarily blown by the wind. A recently updated model from NOAA 
that includes actual wind and current conditions from the past 
year suggests that tsunami debris likely began to arrive in the 
winter of 2011 to 2012. The first confirmed debris from the 
tsunami was identified on March 20 this year when a 160-foot 
fishing boat was spotted off the coast of Canada. Recognizing 
that this ship posed a navigational hazard to mariners, the 
Coast Guard sank it 17 days later.
    We do not actually know how much more debris is coming our 
way, nor do we know what will wash ashore. Low windage items 
that are primarily moved by the ocean currents will take longer 
to reach our Pacific coastline. It will be years before we will 
know the extent of the debris. This will add to the already 
substantial burden that marine debris places on our oceans.
    Along with my West Coast colleagues whose states are now 
being directly impacted by this event, I have long supported 
work that addresses the effects of marine debris on the health 
of our oceans. Most recently last year, I cosponsored Senator 
Inouye's Trash-Free Sea Act to reauthorize NOAA's marine debris 
program and direct the agency to develop a plan on how best to 
respond to marine debris from the tsunamis, floods, landslides, 
and hurricanes.
    And yet, despite the ongoing problem of marine debris and 
the expected increase in marine debris from the Japanese 
tsunami, the President's budget request proposed a reduction in 
funding to this program. I am pleased that the Senate mark 
recognizes the importance of the Marine Debris Program and 
would increase its funding by $400,000 for Fiscal Year 2013, 
providing the resources necessary to continue tracking and 
addressing the impact of the tsunami debris.
    I look forward to hearing from our witnesses today learning 
more about this topic.
    David Kennedy, I appreciate the excellent job that you and 
your staff have conducted at the National Ocean Services and 
keeping us up to date regarding the status of debris from the 
tsunami.
    Admiral Thomas, the Coast Guard is our first line of 
defense against this wave of debris coming toward our shores. I 
am eager to hear more about the Coast Guard's plans in 
addressing this very consequential issue that has potentially 
safety and navigational hazards posed of a serious nature by 
the tsunami debris.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    And let me turn to Senator Cantwell, and then we will start 
with the hearing.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And I want to 
thank you and the Ranking Member for holding this important 
hearing and, Mr. Chairman, for your continued focus on this.
    I would say Washington and Alaska, Oregon, and California, 
Hawaii are all very united in our concern over the economic 
impacts that tsunami debris can have to our region. Our state, 
Washington State's coastal economy produces $10.8 billion in 
economic activity and it supports over 165,000 jobs. So 
anything that threatens that coastal economy is something we 
are going to pay a lot of attention to.
    So we are here today to talk about how we are going to get 
a response from NOAA on what is this threat, the measurement of 
the threat, and what the response plan is to that threat.
    A few short weeks ago, we just marked the 1-year 
anniversary of the devastating tsunami in Japan, and the people 
of Washington State, because of our connection with Japan, have 
a great sense of loss. We remember those people who have lost 
their lives. Seeing that devastation when the waters rolled 
back and we saw what happened shocked many people, not just in 
America but around the world. And so it has become very clear 
to us what unbelievable economic damage can happen and what can 
be at risk.
    So for our commercial and recreational fishing and our 
vessel construction of ships, our tourism, our thriving 
ecosystem, we all want to know what the plan is.
    So, Mr. Chairman, I feel like you do, that we are not 
getting the answers that we need.
    I would like to submit a statement from the Mayor of the 
City of Long Beach. He reflects a unique and staggering concern 
about what tsunami debris can do to his community, and he wants 
to know what the plan is.
    [The statement follows:]

             Written Statement of Robert E. Andrew, Mayor, 
                     City of Long Beach, Washington
Introduction
    Chairman Rockefeller, Ranking Member Hutchinson, and distinguished 
Members of the Committee, thank you for allowing me to share my 
thoughts with you on this issue. This is written as though it were 
testimony before the Committee.
    I am the Mayor of Long Beach, a small coastal town of about 1,400 
hardy citizens located at the most southwest corner of the great state 
of Washington. It is where the mighty Columbia River meets the Pacific 
Ocean, and it is a wild and scenic place, where the historic ways of 
making a living from land and sea still provide for our families. The 
ocean and bays are a part of the working landscape of our economy--
crabbing and fishing in the ocean, and shellfishing for clams and 
oysters in nearby Willapa Bay.
    This rugged place is not for everyone--winters are cold and wet, 
and we frequently experience hurricanes. We are home to landmarks with 
picturesque and dark names such as Dismal Nitch, Cape Disappointment, 
and the Graveyard of the Pacific. The Columbia River bar is one of the 
most treacherous stretches of water on Earth, and nearby the Coast 
Guard maintains Station Cape Disappointment--which responds to 300 to 
400 calls each year--as well as its renowned National Motor Lifeboat 
School, which is a rough water training facility.
    Why would anyone live here you may wonder--because we are truly 
blessed with an abundance of nature. It is not unusual to see eagles 
soaring, deer or elk grazing by the roadside, or a mother bear with 
cubs. Everyone fishes and digs razor clams for fun AND for dinner. 
Cranberries and blueberries grow easily in our climate, and it is a 
treat to see these fields butt up against natural forested land. The 
eight-plus mile Discovery Trail will take you from dune to forest to 
beach, and you can explore both of our lighthouses. But the ``main 
event'' is our beach. The Long Beach Peninsula is a finger-like sandbar 
running north-south parallel to the coast, with narrow Willapa Bay 
between the peninsula and the mainland. This peninsula is an accreted 
sandbar, created by sediments that travel down the Columbia River, then 
drift northward and settle. The most distinctive feature of the Long 
Beach Peninsula is 28 breathtaking miles of unobstructed sandy beach.
    So you can imagine that we value our beach. And you can probably 
imagine that we worry about the possible effects that debris from the 
March 2011 Tohoku tsunami that occurred off the coast of Japan might do 
to our beach, as well as to our historic fisheries.
Background
    On March 11, 2011, a magnitude 9.0 undersea mega-thrust earthquake 
occurred approximately 43 miles east of the Tohoku coast of Japan. It 
was the most powerful earthquake ever known to have struck Japan, and 
one of the five most powerful earthquakes in the world since modern 
record-keeping began. The earthquake triggered a multi-wave tsunami 
that reached heights of up to 133 feet, and which travelled up to 6 
miles inland.
    This earthquake-tsunami event resulted in the deaths of nearly 
16,000 people, with an additional 27,000 injured and 3,200 missing. 
Severe damage occurred--more than 129,000 buildings totally collapsed, 
and a further 946,000 buildings were damaged. The event also caused 
extensive and severe structural damage in north-eastern Japan, 
including heavy damage to roads and railways, and a dam collapse. A 
total of 319 fishing ports were damaged in the disaster, and utilities 
were destroyed. A vast quantity of debris from this event--estimated at 
5 million metric tons--was swept into the Pacific Ocean on the 
retreating tsunami waves.
Debris Problems and Issues Facing a Small Washington Town
    What does this all mean to a small coastal Washington town? Our 
concerns are likely representative of the Columbia-Pacific region if 
not the entire coast, and include fisheries, tourism, and maritime 
navigation.
    Fisheries. Fishing is both a recreational and commercial way of 
life in our part of the world. At the southern end of the Long Beach 
Peninsula, our neighbor Ilwaco is a port village that is home to 
commercial and charter fishing fleets. Jessie's seafood processing 
facility perches on the Ilwaco waterfront, has been in business in the 
region since the 1940s and in Ilwaco since the 1960s, and employs an 
average of 110 FTEs. Salmon, sturgeon, halibut and other bottom fish, 
tuna, and crab support this historic fishery. Due to fish population 
changes and attendant regulatory changes, these fisheries have been 
hard hit in the past 50 years. Now our fishermen range further than 
ever before to make a living, some fishing in Alaska for part of the 
year. Should tsunami debris damage northwest fish and crab populations, 
we may well face the complete loss of our regional fisheries. While I 
am sure the living landscape of our shoreline and shallow waters will 
recover, I am not sure they will recover in time to maintain these 
historic fisheries. This would be a major blow to our economy, our 
communities, and a sad loss of a hard-working way of life that has 
survived two centuries. If our fisheries are affected, it is critical 
that regional fishers be kept going financially until the environment 
can recover.
    Tourism. Long Beach and the peninsula on which it is located are 
largely supported by tourism. In fact, more than 45 percent of the 
homes in Long Beach are vacation homes. The wintertime population of 
the Long Beach Peninsula is around 10,000 people, but in the summertime 
residents and visitors number around 30,000. From July through 
September we hope to see our hotels full, as well as our restaurants 
and shops. All of this economic activity is due to the beach--visitors 
and summer residents come for the beach first, and then explore and 
enjoy the rest of the area. Since the global economic downturn, we have 
had our local downturn as well. The result of tsunami debris on our 
beach with respect to tourism is uncertain. I will be honest, if the 
debris is fairly light and not dangerous it might capture the 
imagination of the public and could be the best thing that ever 
happened to us. It would be a treasure hunt every day. We had 4 dead 
whales on our beach in two months this winter, and it was unbelievable 
how many people turned out in the wind and rain to take a peek. But on 
a more serious note, if the debris is heavy or dangerous, it could keep 
the visitors and summer residents we are so dependent on away. And THAT 
would be disastrous for our economy, and for the 230 small businesses 
located in Long Beach that are the engine of that economy.
    Maritime Navigation. The Columbia River connects the Pacific Ocean 
to the upstream Ports of Portland, Vancouver, Kalama, Longview, 
Rainier, and Astoria, as well as several smaller ports. More than 40 
million metric tons a year are transported via the Columbia River 
shipping channel. So, it is a critical and major element in the west 
coast maritime industry. In addition, tens of thousands of small 
charter boats and very small personal recreational fishing craft 
traverse the river near its mouth as well as the nearby Pacific Ocean. 
Should tsunami debris hamper the mouth of the Columbia, it could affect 
shipping, resulting in a major negative economic loss to the region. 
More importantly, it has the potential to pose a hazard to smaller 
vessels, risking human safety.
    In summary, my three main concerns for our local area and region 
relate to fisheries, tourism, and maritime navigation. If all three 
were negatively affected, it would in essence be a ``triple whammy'' on 
our local and regional economies. In combination with the general 
downturn in the economy, an uncoordinated or unmanaged response to this 
debris event is a blow that Long Beach and the Columbia-Pacific region 
cannot endure.
Tsunami Debris Modeling, Predictions, and What We Can Understand from 
        Them
    Several entities have modeled the path of the Japanese tsunami 
debris. Modeling conducted just after the event in April 2011 by The 
International Pacific Research Center predicted that debris would reach 
our coastline three years after the event, in 2014. In February of this 
year, the same group more or less reconfirmed their model stating that 
tsunami debris will not reach our coastline for another year or two, 
2013 or 2014.
    NOAA's original models predicted that debris, if it arrived at all, 
would make west coast landfall in 2013. At that time, NOAA's worst-case 
scenario was for large concentrations or heavy objects to wash ashore 
and the agency's best-case scenario was for debris to break up and 
disburse, never making landfall, or that only a tiny fraction would 
make landfall. Taken as a whole, those predictions were not very 
useful.
    More recent NOAA modeling takes into account that buoyant materials 
will be wind-driven and less buoyant materials will be current-driven. 
That model recognizes that wind-driven debris has already made landfall 
and will continue to do, and that debris may or may not be followed by 
current-driven debris. This more recent model reflects anecdotal 
information from British Columbia and Alaska, local beachcombers, and 
local beach clean-up volunteers. However, this model still does not 
tell us about the quality or quantity of debris that may reach our 
shores.
    So, what can we understand from all of this? It seems that we must 
plan for every possible outcome, or narrow down the possible outcomes 
by getting better information.
Getting Better Information
    Modeling is based on assumptions, and educated as they might be 
they are still assumptions. So, where can we find better information? 
Well, there is nothing like a picture to tell a story. I attended 
several meetings on the Long Beach Peninsula that included state and 
Federal representatives. One of their concerns on the tsunami debris 
issue was that information was lacking entirely or was of insufficient 
quality. In particular, these folks felt the resolution of satellite 
imagery available to them was too low to be of much use. If satellite 
imagery of a higher resolution were available, say from military 
satellites, then useful information about the debris and its path could 
be obtained. I don't know about security clearances, but I am hoping 
you can find a way to use more sophisticated equipment that already 
exists to develop the higher resolution information. Using this more 
accurate information could lead to a far more accurate and efficient 
plan of action.
Getting Procedures and a Program in Place
    Whether or not we have better information, procedures for 
communication and action as well as a chain of authority and 
responsibility need to be established, and I believe they need to be 
put in place quickly. This month we read articles in the Alaskan press 
of debris on the beach with no plan to pick it up and cries of ``Shame 
on us for not being prepared.'' We have had a year to get prepared, and 
Washington too will have few excuses when the day comes.
    While we in government can quickly establish a network of 
communication, it does not seem to have happened. We have received some 
phone numbers and an e-mail address, but that hardly constitutes a 
plan. The public will naturally call 9-1-1 if they find debris on the 
beach that puzzles or frightens them. What do our dispatchers tell 
them, and to whom do they relay the public's concerns? What if a 
personal item is found--how might it be restored to its rightful owner? 
What if a barrel or other potentially hazardous item is found? Can ANY 
item be legally taken off the beach under these circumstances? And the 
$64,000 question: When and if debris starts to pile up on or beaches or 
interferes with maritime navigation, who is going to pick it up and 
where will they take it? The City of Long Beach itself has literally 
one dump truck--we are too small and woefully under-budgeted to address 
a moderate to heavy debris event. Yet we want to and will certainly do 
our part.
    I urge you to plan for this tsunami-related debris event, and to 
plan for it occurring this year. With limited funding in this economic 
environment a well-developed plan and well-coordinated program will be 
the most effective and efficient solution for dealing with what might 
be a major threat to the west coast. If we fail to protect our natural 
and working landscapes or our people, we have failed as government. We 
are small, but want to be part of the solution, and we look to your 
leadership to define a plan of action. Long Beach--and I believe the 
Columbia-Pacific region--stands ready to do our part. There is much at 
stake.
    Thank you for the opportunity to share my thoughts with you.

    Senator Cantwell. Mr. Chairman, we also had in this just 
last few weeks an incident in Washington State where a crabber 
vessel was sunk, and now oil leaking from that vessel is 
threatening the shellfish industry in our state. So it does not 
take a lot to imagine what would happen if the response plan is 
just ``we will sink it.'' We need something much more elaborate 
to understand and stop this debris before it actually reaches 
our shores. That is what we want to see, and that is what we 
are hoping to get from a response plan today.
    It is very important that the resources are there to 
mobilize the emergency research funds from the RAPID program, 
the National Science Foundation RAPID program, which would give 
scientists the tools that they need to analyze and to tell us 
about this likely debris and where it will go and what areas it 
will impact.
    We also want to make sure that this science is available to 
other scientists in the Northwest. It is almost as if there is 
an attitude that the tsunami debris is top secret and we cannot 
get the information. It should not be this way. The information 
and data, the best-guess scenario should be available to 
everyone and all communities so that they can plan.
    We would hope that once that information is made available, 
that that would be part of an action plan that then could be 
implemented by the Coast Guard, by NOAA, but certainly would 
give those communities the sense that they can plan for what 
this likely impact could be. We know that not every plan is 
going to be carried out in the detail that was originally 
proposed, but having no plan or not understanding what the plan 
is or just counseling people individually does not give the 
people of Washington State the certainty and predictability 
that they would like to see. Many people said we would not see 
any of this impact until 2013 or 2014, and now ships and motor 
cycle and this various debris are showing up and people want 
answers.
    So, Mr. Chairman, I look forward to the witnesses being 
here today. I know that they play a role and it is not all on 
their shoulders. But certainly this Senator is going to 
continue to push until NOAA responds in the appropriate way of 
giving our coastal communities the answers that they deserve.
    I thank the Chairman.
    Senator Begich. Thank you very much.
    Let me first start with our first witness, Mr. David 
Kennedy, Assistant Administrator, National Ocean Service, 
National Oceanic and Atmospheric Administration, otherwise 
known as NOAA. Please.

            STATEMENT OF DAVID M. KENNEDY, ASSISTANT

         ADMINISTRATOR, OCEAN SERVICES AND COASTAL ZONE

          MANAGEMENT, NATIONAL OCEANIC AND ATMOSPHERIC

          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Kennedy. Thank you. Chairman Begich and members of the 
Subcommittee, thank you for the opportunity to testify on the 
NOAA Marine Debris Program and its activities to address the 
marine debris generated by last year's devastating Japan 
tsunami.
    NOAA is very concerned and is taking the active steps to 
address the threat tsunami debris poses to our coastal 
communities and natural resources. We are leading efforts with 
Federal, State, and local partners to collect data, assess the 
debris, and reduce possible impacts.
    I would like to give you some background on the Marine 
Debris Program, which is the Federal Government's lead on 
marine debris issues, and highlight a few examples of how NOAA 
is responding.
    The NOAA Marine Debris Program is small, but it has a big 
impact on a big problem. The world's oceans and shores are 
plagued by manmade debris that causes untold economic losses to 
coastal communities and threatens wildlife, habitat, human 
health, safety, and navigation. The program of 13 staff 
conducts activities to research, prevent, and reduce marine 
debris and its impacts. In addition to its robust science, 
outreach, and education components, the program also spends a 
significant portion of its budget supporting long-term 
community-based removal projects. These projects benefit 
coastal habitats and waterways, but they are not rapid 
response. The program, which sits within NOAA's Office of 
Response and Restoration, has historically received 
approximately $4 million in annual appropriations. Regional 
coordinators located throughout the country provide support to 
these projects and lend expertise to marine debris stakeholders 
in coastal states and territories.
    As Chair of the Interagency Marine Debris Coordinating 
Committee, NOAA continually works in partnership across Federal 
agencies to ensure coordination on national and international 
marine debris efforts.
    Since the disaster struck Japan, NOAA's activities, led by 
the Marine Debris Program have focused on understanding the 
scope of the threat to our coasts from tsunami-generated 
debris. NOAA quickly mobilized after the disaster to share the 
latest information on the threat, and we are continuing to 
collect data on the debris quantity and type, as well as 
location and movement. At the same time, we are coordinating 
heavily with State and local response agencies to share 
information and draft response plans that will help reduce 
impacts to communities, natural resources, and navigation.
    The Government of Japan, as has been referenced here 
before, estimated that the tsunami swept 5 million tons of 
debris into the ocean and that 1.5 million tons of that 
floated. It is unclear how much of it and what types survived a 
year at sea, but we expect that it could be buoyant items such 
as floats, lumber, plastic containers, and vessels. Radiation 
experts assure us it is highly unlikely any debris is 
radioactive, but there is a possibility that hazardous items 
such as oil drums will wash ashore.
    The potential area where debris may have drifted in the 
north Pacific Ocean is vast, equaling a space roughly three 
times the size of the contiguous United States. In order to 
locate significant concentrations or large items, we are 
gathering data from multiple at-sea sources, including ocean-
going vessels, aircraft, and satellites. Our models, which have 
given us an understanding of where debris may be located today, 
help focus our detection and response decisions. NOAA has asked 
groups who regularly have eyes on the water to report 
sightings, including fleets from partner Federal agencies, 
commercial fishing and shipping vessels, scientific 
expeditions, and recreational pilots.
    The U.S. Coast Guard reports any sightings logged during 
regular enforcement overflight missions, and in some cases, 
they have conducted overflights with NOAA representatives on 
board to help identify debris.
    We also continue to receive and analyze high resolution 
satellite imagery from the National Geospatial Intelligence 
Agency to find debris in targeted areas where our models 
suggest it may be located. We will continue to use 
sophisticated detection technologies as they become available 
to us.
    NOAA is also acquiring baseline information on marine 
debris that is currently stranded on U.S. coastlines in advance 
of the possible influx of tsunami debris. Changes in volume and 
type of debris may be the only indication that tsunami debris 
has arrived. So NOAA plans to conduct marine debris surveys in 
all impacted areas for the next 2 years. In order to gain a 
more complete picture of where debris is showing up, we also 
have established an e-mail address where anyone, including the 
general public, may report sightings.
    Debris removal will likely fall to the states in most 
cases, and with tight budgets, it is necessary to ensure that 
removal plans make the best use of existing resources. NOAA is 
coordinating with State and local agencies to create 
contingency plans for a range of scenarios which will include 
rapid response protocols. Workshops have already taken place in 
Hawaii and Washington State, and the results will help guide 
workshops planned for Alaska, Oregon, and California.
    NOAA will continue to pursue on-the-ground research, 
prevention, and reduction of marine debris nationwide and 
leverage every resource available to address debris from the 
Japanese tsunami. However, comprehensively responding to the 
tsunami debris will take substantial resources. Emergency trust 
funds do exist, but currently there is not a fund for marine 
debris hazard response on this scale. So it is critical that we 
continue to have a complete engagement at every level, Federal, 
State, and local. It will not be possible for NOAA to 
coordinate a debris response without each State's 
participation.
    NOAA is committed to protecting our communities and trust 
resources for the impact of debris and looks forward to working 
with the Committee to achieve this outcome.
    I would also like to thank the Committee for its attention 
to the marine debris problem and for its continued efforts to 
reauthorize the NOAA Marine Debris Program.
    Thanks. I am willing, of course, to take questions.
    [The prepared statement of Mr. Kennedy follows:]

Prepared Statement of David M. Kennedy, Assistant Administrator, Ocean 
      Services and Coastal Zone Management, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce
Introduction
    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to testify on the National Oceanic and Atmospheric 
Administration (NOAA) Marine Debris Program (MDP) and its activities 
surrounding marine debris generated by the devastating Japan tsunami. 
My name is David Kennedy, Assistant Administrator for the National 
Ocean Service at the Department of Commerce's NOAA.
    NOAA is concerned about the threat this debris poses to our coastal 
economies and natural resources, and we are leading efforts with 
federal, state, and local partners to collect data, assess the debris, 
and reduce possible impacts. I would like to take this opportunity to 
give you some background on the program and what it does, as well as 
highlight the ways NOAA is working to assess and respond to the tsunami 
debris.
Marine Debris Impacts
    Marine Debris is currently defined for the purpose of the Marine 
Debris Research, Prevention, and Reduction Act as, ``any persistent 
solid material that is manufactured or processed and directly or 
indirectly, intentionally or unintentionally, disposed of or abandoned 
into the marine environment or the Great Lakes.'' Marine debris, which 
can be anything from lost or abandoned fishing gear and vessels, to 
plastics of any size, to glass, metal, and rubber, is an on-going 
international problem that impacts our natural resources. In addition 
to being an eyesore, it can threaten oceans, coasts, wildlife, human 
health, safety, and navigation. Every year, unknown numbers of marine 
animals are injured or die because of entanglement in or ingestion of 
marine debris. It can scour, break, smother, or otherwise damage 
important marine habitat, such as coral reefs. Many of these habitats 
serve as the basis of marine ecosystems and are critical to the 
survival of many important species. Derelict fishing gear can also cost 
fishermen untold economic losses. For example, crab pots and nets can 
continue to capture fish--something we refer to as ``ghost fishing''--
for years after they're lost or abandoned, depleting fisheries and 
reducing abundance and reproductive capacity of the stock. In addition 
to the ecosystem impacts, coastal communities collectively spend 
millions of dollars annually trying to prevent debris from washing up 
on their shorelines and trying to remove it once it does wash up. It 
not only degrades our coasts' natural beauty, but it threatens the 
safety of those who work and play there.
    Marine debris can also present a navigation hazard to vessels of 
any type. Ropes, plastics, derelict fishing gear, and other objects can 
get entangled in vessel propellers and cause operational problems and 
large items such as lost containers can actually be collision dangers. 
Plastic bags can clog and block water intakes and are a common cause of 
burned-out water pumps in recreational crafts. Such incidents involve 
costly engine repairs and disablement. These dangerous and costly 
impacts are problems for both the recreational boating and commercial 
shipping communities, and NOAA's MDP is actively seeking partnerships 
within these communities to expand our area of knowledge and begin to 
proactively address the dangers.
    Abandoned vessels along the Coasts and waterways are another type 
of marine debris posing a threat to marine resources and navigational 
safety in our waterways. Because older or inoperable vessels are 
expensive to remove and become even more costly the longer they are 
left in place, owners sometimes leave such vessels on the shoreline or 
sunk close to shore after removing identifying numbers. With the 
economic downturn, many states are finding abandoned vessels to be a 
serious marine debris problem.
    In addition to improving navigation safety, addressing marine 
debris reduces the risks of entanglement and trapping of marine 
species, as well as risks to human health, and it promotes vital marine 
habitat recovery.
The NOAA Marine Debris Program in 2012
    The NOAA MDP supports national and international efforts to 
research, prevent, and reduce the impacts of marine debris. Its 
activities are mandated by the 2006 Marine Debris Research, Prevention, 
and Reduction Act. Since then, the program has been a leader on marine 
debris issues, and continually works in partnership with local and 
state agencies, other Federal agencies, nongovernmental organizations, 
academia, private industry, and the interested public to identify and 
address key marine debris issues.
    The program, which is currently supported by 13 staff, conducts 
research, prevention, and reduction projects and outreach and education 
activities, which are implemented by NOAA directly or through grants, 
contracts, and cooperative agreements. Regional coordinators in several 
locations around the country act as a resource for local marine debris 
stakeholders, and work to manage, support, and coordinate marine debris 
activities.
    The program is currently focused regionally with coordinators 
leading marine debris efforts in the Pacific Islands, Alaska, West 
Coast, Gulf of Mexico and Caribbean, East Coast, and Great Lakes. Since 
2005, the program has funded over 212 projects, and held 14 regional, 
national, and international workshops and meetings.
    As the lead Federal agency addressing marine debris and Chair of 
the Interagency Marine Debris Coordinating Committee, NOAA continually 
works in partnership across Federal agencies to ensure coordination in 
its national and international marine debris efforts.
    The NOAA Marine Debris Program received $4.6 million in FY 2012 to 
address and respond to marine debris and plans to use these funds for 
several activities over the coming year. Those activities include 
debris removal from the Northwestern Hawaiian Islands, improved at-sea 
observations, coastal monitoring, contingency planning, and model 
improvement. In accordance with direction given in the Senate 
Appropriations Committee Report on the Department of Commerce's FY 2012 
appropriations (112-78), NOAA will continue to coordinate and integrate 
habitat conservation and coastal restoration activities, including the 
Marine Debris Program, within the agency in order to streamline efforts 
and find administrative efficiencies.
Research
    Marine debris is a relatively new research field, and there are 
many opportunities to advance understanding of how debris impacts the 
environment. Over the past several years, the NOAA MDP has focused on 
microplastics research, developing standardized methodologies for 
monitoring marine debris on shorelines and in coastal surface waters, 
and assessing derelict fishing gear impacts throughout the country.
    The program also supports studies that close gaps in understanding. 
For example, in 2005 and 2007, the program funded a crab pot survey 
project in the Chesapeake Bay that ultimately helped form the 
Commonwealth of Virginia's crab recovery program.
    The program developed a strategy to guide coordination of holistic, 
efficient, and impactful research projects through 2016, focusing on 
the abundance and behavior of debris in the marine environment, and 
investigation into the chemical, biological, and socio-economic impacts 
of debris on marine and coastal ecosystems. The strategy provides a 
framework for engaging in complementary research and planning to best 
address the risks of marine debris to marine systems by prioritizing 
the most urgent gaps in research. The knowledge gained through these 
projects will help focus prevention and reduction efforts on the areas 
of greatest concern.
Prevention
    One of the best ways to reduce marine debris is through prevention, 
and that requires that boaters, fishermen, industry, and the general 
public have the knowledge and training to change behaviors that create 
marine debris.
    The NOAA Marine Debris Program's robust outreach and education 
activities focus on improving awareness and changing behavior through 
developing and disseminating public information, and by partnering with 
external groups to expand its reach. For example, the program partners 
with the U.S. Coast Guard to educate boaters about at-sea garbage 
dumping regulations. Other partners include the Legacy Foundation, with 
whom NOAA raises awareness on cigarette butt litter, and the Ocean 
Conservancy, with whom we partner on digital outreach and awareness. 
The materials and partnership products are all free and downloadable 
from the NOAA MDP website, and the program's regional coordinators do 
extensive boots-on-the ground outreach year-round.
    The program also works to educate children on the marine debris 
problem. It has developed and provided marine debris curriculum to 
schools across the country, facilitated a popular elementary and middle 
school art contest, and is now pursuing outreach techniques to better 
reach high school students.
Reduction
    Since its inception in 2005, the NOAA MDP has been actively 
involved in marine debris abatement projects on the East and West 
Coasts, Hawaii, Alaska, and the Gulf Coast and Great Lakes regions. A 
significant portion of the program's budget goes toward supporting 
removal, including locally driven, community-based marine debris 
prevention and removal projects that benefit coastal habitat, 
waterways, and wildlife including migratory fish.
    For example, in Washington State, the program supported the 
Northwest Straits Marine Conservation Initiative in its effort to 
survey for, assess the impact of, and remove derelict fishing gear in 
Puget Sound, resulting in the removal of thousands of derelict fishing 
nets and crab pots. Similarly, in 2007 NOAA supported the Stilaguamish 
Tribe of Indians in surveying for crab pots using side scan sonar, and 
removing derelict crab pots deeper than the reach of divers with a 
remotely operated vehicle.
    In Alaska's Prince William Sound, NOAA partnered with the Gulf of 
Alaska Keeper Foundation to remove debris from remote shorelines both 
inside the Sound and on the outer coast in order to prevent the re-
mobilization of debris that can threaten marine species through 
entanglement and ingestion and help to restore valuable coastal 
habitat. In many areas, this removal has been paired with annual 
returns to the same beaches to monitor how much and how quickly debris 
accumulates.
    The program also engages in many partnerships across the country, 
which often focus on removal, as well as education and outreach. One 
important example of a successful strategic partnership is the Fishing 
for Energy program. Launched in 2008 through a partnership among 
Covanta Energy Corporation, the National Fish and Wildlife Foundation, 
NOAA, and Schnitzer Steel Industries, Inc., the partnership works 
closely with state and local agencies, community and fishing groups, 
and local ports to install bins at convenient and strategic locations 
into which fishermen can deposit fishing gear. When these bins fill up, 
the gear is collected and transported to a nearby Schnitzer Steel 
facility where the metal (e.g., crab pots, gear rigging) is pulled for 
recycling, and rope or nets are sheared for easier disposal. Then the 
waste is brought to the nearest Covanta Energy-from-Waste facility, 
where the gear is converted into renewable electricity for local 
communities.
Regional Coordination
    Working with non-governmental organizations, academia, regional 
organizations, local, state and Federal governments, and international 
organizations is a priority for the NOAA MDP. NOAA's marine debris 
regional coordinators extensively cover marine debris issues in the 
Pacific Islands, West Coast, Alaska, Great Lakes, East Coast, and Gulf 
of Mexico. While these coordinators focus on the local, state, and 
regional issues as a part of the national program, they are also able 
to bring in lessons learned and make connections across the country and 
the world. NOAA has held lead roles in developing marine debris plans 
for Hawaii and the West Coast Governors Alliance on Ocean Health, 
planned multiple workshops for New England, the Great Lakes, Alaska, 
and Hawaii, and worked on specific projects throughout all regions. 
NOAA continues to work with partners throughout the country to develop 
and test innovative and cost-effective methods of detection and removal 
of marine debris, and to engage the public and industry, including 
shippers and fishermen, and the recreational community on marine 
debris.
Marine Debris and the 2011 Japan Tsunami
    Marine debris typically originates from both land-based and ocean-
based sources, but coastal storms and natural disasters are another 
source of marine debris creating hazards on our inland and coastal 
waters. For example, as a result of the tragic tsunami that struck 
Japan last year, NOAA anticipated debris that washed into the ocean 
would gradually reach U.S. and Canadian shores. In addition to the 
incredible human tragedy of the earthquake and tsunami, part of its 
aftermath has resulted in concern over marine debris that directly 
impacts our coasts.
    NOAA's MDP has been focused on this issue since the day of the 
tsunami. The Government of Japan estimated that the tsunami swept 5 
million tons of debris into the Pacific Ocean, and that 70 percent sank 
right away near the coast of Japan, leaving an estimated 1.5 million 
tons floating. The debris quickly dispersed out of the large ``debris 
fields'' that were observed in the days following the disaster, and 
after a few weeks, it could no longer be located with low-resolution 
satellite.
    Now, more than a year later, it is likely that some debris has 
broken apart, weathered, or sank. NOAA's models show that the area 
where debris may have dispersed is equal to roughly three times the 
size of the contiguous United States. While it is difficult to tell 
exactly what types of debris are still floating or how much, it is 
believed that buoyant debris such as fishing gear, lumber from 
destroyed buildings, consumer plastics and styrofoam, rubber and other 
materials, oil and chemical drums, and possibly vessels may still be 
floating. The MDP is working to understand the scope of the threat, and 
is collecting data on debris quantity and type, location and movement, 
and impact.
At-Sea Detection
    In order to understand where the debris is located today and where 
it may wash up on shorelines, NOAA modeled the debris' path using a 
model that responders have previously used during oil spills. This gave 
NOAA an understanding of where debris from the tsunami may be located 
today, because we were able to simulate how winds and ocean currents 
from the past year may have moved items through the Pacific Ocean. We 
are updating this model regularly with new data, and exploring other 
modeling options through collaborations with university and Cooperative 
Institute modelers, as well as a subject matter expert group that 
includes modelers from across NOAA and the University of Hawaii. For 
example, in FY 2012, NOAA plans to leverage existing partnerships at 
the University of Washington to develop a model that will provide more 
accurate estimates of debris concentration at or just beneath the 
ocean's surface.
    Given model limitations and the large potential area of debris 
drift in the vast North Pacific Ocean, NOAA is working in other ways to 
ensure the public and local communities have the best information on 
the debris' location and types. To that end, NOAA is using ocean-going 
vessels, aircraft, and satellites to gather additional data.
    NOAA has coordinated with groups who regularly have ``eyes on the 
water,'' to report back debris sightings, including shipping fleets, 
commercial fishing vessels, and scientific fleets such as University-
National Oceanographic Laboratory System vessels. The U.S. Coast Guard 
also reports any sightings logged during regular enforcement over-
flight missions, and NOAA has asked recreational pilots to do the same 
through the Federal Aviation Administration. NOAA established an e-mail 
address, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e8ac819b899b9c8d9aac8d8a9a819ba886878989c68f879e">[email&#160;protected]</a>, where any sightings at sea or from 
the general public on shore may be reported, and those sightings are 
entered into a tracking database.
    NOAA is working to acquire high-resolution satellite imagery of 
targeted areas in the North Pacific Ocean through NASA and the National 
Geospatial Intelligence Agency, so that we can inform our models and 
gather more information about how much debris is still floating. The 
Department of Defense has also offered its input on satellite imagery.
    NOAA will continue to make sightings data available to our response 
agency partners and the public through maps, graphics, and other 
visualizations of debris in the water and on shorelines. The 
information is available on NOAA's Environmental Response Management 
Application (ERMA). ERMA was a successful vehicle for making data 
available to the public during the Deepwater Horizon oil spill 
response.
    In FY 2012, NOAA is also pursuing additional at-sea detection 
technologies to gather more information about the debris. Proposals are 
in the works to deploy drifter buoys in concentrations of marine debris 
or other strategic areas of interest, which will help NOAA refine its 
marine debris fate and transport modeling. Ship-based Unmanned Aircraft 
System surveys, will also be conducted from opportunistic cruises to 
help detect Japan tsunami marine debris at-sea in open North Pacific 
waters.
Coastal Monitoring
    Leveraging local knowledge of the shorelines and near-shore 
landscape is also important, since the only indications that marine 
debris specifically from the Japan tsunami is making landfall in a 
region may be changes in the quantity or the composition of debris 
compared to what is observed normally. NOAA is acquiring baseline 
information on the marine debris that is currently stranded on U.S. 
coastlines in advance of potential influx of tsunami debris. Using 
NOAA's standardized shoreline monitoring protocols, baseline marine 
debris surveys will be conducted in Alaska, California, Oregon, the 
main Hawaiian Islands, and Washington for a two-year period. Shoreline 
monitoring with the U.S. Fish and Wildlife Service on the Northwestern 
Hawaiian Islands is well underway.
    NOAA will also extend activities on four to five existing shoreline 
monitoring sites within the Gulf of Alaska. Additionally, marine debris 
data will be collected on shore during planned ship-based surveys of 
the outer coast of South East Alaska from Dixon Entrance to Yakutat. 
Drop-camera searches will also be conducted opportunistically for 
derelict fishing net aggregations at snag points near-shore.
    Results of the monitoring will help indicate when and where Japan 
tsunami marine debris is making landfall. NOAA Marine Debris staff will 
work with state and local partners from government agencies and non-
governmental organizations (NGOs) to conduct shoreline monitoring of 
marine debris using standardized shoreline monitoring protocols. A side 
benefit of this project is development of monitoring partnerships that 
will facilitate future data collection and community engagement.
Contingency Planning
    Since we do not expect the debris' impact or the response to those 
impacts to be the same in every state, NOAA is working with federal, 
state and local agencies to create regional contingency plans, which 
will include rapid response protocols. Ideally, each region or state 
will have specific protocols based on its response structure and 
available resources.
    The NOAA MDP held contingency planning workshops in Hawaii and 
Washington State, which each included representation from about 50 
Federal and state agencies, counties, tribes, NGOs and industry. The 
results will help guide workshops planned for Alaska, Oregon, and 
California.
Communication and Coordination
    NOAA meets with multiple state and Federal agencies on a regular 
basis to coordinate on tsunami marine debris response and to exchange 
information and external messaging. Federal partners include the U.S. 
EPA, U.S. Coast Guard, Navy, Department of State, U.S. Fish and 
Wildlife Service, and the National Park Service. The Interagency Marine 
Debris Coordinating Committee, chaired by NOAA, receives regular 
updates on the situation and has discussed how to best leverage 
capabilities without duplicating efforts.
    NOAA's regional coordinators are working with local representatives 
from these agencies in AK, CA, HI, OR, and WA, and are also working 
directly with state and local agencies, as well as the Government of 
British Columbia, to ensure they receive and share the most current 
information. The MDP's coordinators have participated in or led nearly 
100 meetings, briefings, or public town halls on this issue in impacted 
regions since October.
    In addition to regular meetings, the MDP hosts biweekly calls to 
present the latest information and status update on the situation. The 
call list includes over 125 individuals and is open to all interested 
state and Federal agencies from Midway to Alaska, including those in 
Canada.
    NOAA, along with the Department of State, has also been in regular 
contact with the Government of Japan, Kyoto University, and Japan 
consulates in Hawaii, Alaska, and U.S. West Coast states. NOAA and the 
Government of Japan have agreed to exchange information on research, 
modeling, and data collection, and NOAA staff is working with 
consulates on protocols for returning any sensitive items found back to 
Japan.
    Media and public interest in this issue is high, and in order to 
provide the best information to a widespread audience, MDP staff has 
given dozens of interviews to nearly 100 different national and local 
media outlets. We have continually updated our NOAA MDP website with 
the latest information on the tsunami, providing Frequently Asked 
Questions and access to our latest model visualizations. Our state 
partners have also collaborated on a federal-state joint information 
center website to provide a ``one-stop shop'' to the public for 
regional information. It includes access to fact-sheets, pictures, and 
guidelines for reporting debris.
    Cleanup plans in regions where debris could potentially make 
landfall and responsibility for implementing them will vary 
significantly depending on what types of debris arrive and where. As 
part of NOAA's contingency planning process, we will use existing 
response protocols to help states determine which responder would have 
jurisdiction in a range of scenarios. For example, if a HAZMAT item 
washed up on state-owned land, the responder would be different than if 
consumer plastics washed up in a National Park.
    However, in order to make sure contingency plans are efficient, 
comprehensive, and useable, NOAA needs complete engagement during the 
planning process from state agencies, which are best equipped to make 
decisions about who can handle debris and what resources are available 
for removal. In most cases, decisions to remove debris will likely fall 
to the states, and it is necessary to ensure that the contingency plans 
help make the best use of existing resources. Contingency planning is 
already well underway in Hawaii and Washington, but the process has yet 
to start in Oregon, California, and Alaska.
Conclusion
    Marine debris is a problem we can, for the most part, prevent. The 
NOAA MDP will continue to pursue on-the-ground research, prevention, 
and reduction of marine debris nationwide, and leverage every resource 
available to address problematic debris from the Japan tsunami. While 
the problem of marine debris has existed for decades, there is still 
much to learn as we work to address the impacts of marine debris to the 
environment and marine species. Additional research is needed to 
understand and assess the impacts of marine debris on diverse species 
and habitats as well as the economic impacts and the dangers to 
navigation posed by marine debris. NOAA is committed to minimizing the 
impact of marine debris, and looks forward to working with the 
Committee to achieve this outcome.

    Senator Begich. Thank you very much. We will start with the 
questions in just a moment.
    Rear Admiral Cari Thomas, Director of Response Policy for 
the U.S. Coast Guard.

STATEMENT OF REAR ADMIRAL CARI B. THOMAS, ASSISTANT COMMANDANT, 
               RESPONSE POLICY, U.S. COAST GUARD

    Admiral Thomas. Good morning. Chairman Begich, Ranking 
Member Snowe, Senator Cantwell, I am Cari Thomas and delighted 
to be here, part of the U.S. Coast Guard.
    I am pleased to have this opportunity to discuss with you 
the service's roles and authorities it applies to protect the 
U.S. waters, shorelines, and exclusive economic zone from the 
potential impacts of the marine debris created by the 
devastating 2011 Japan tsunami.
    Being responsible for response policy, my duties include 
overseeing incident management policies. In carrying out those 
duties, I draw upon my 14 different assignments where I was 
involved with several types of incidents, including hurricanes, 
ship groundings, airplane crashes, mass migrations, and 
hundreds of search and rescue cases, some of which included 
marine debris.
    Today I will provide an overview of Coast Guard efforts 
related to marine debris, delineate the Coast Guard's role in 
supporting NOAA and the interagency and provide some 
operational examples that reinforce the principles of 
preparedness and the need for advance planning to address the 
challenges caused by marine debris.
    As discussed by Mr. Kennedy, NOAA is the lead agency for 
conducting research, monitoring, prevention, and reduction 
activities for marine debris. NOAA's Marine Debris Program 
leads this effort and NOAA chairs the Interagency Marine Debris 
Coordinating Committee. The Coast Guard supports NOAA by 
participating as a member of that committee.
    The Marine Debris Research, Prevention and Reduction Act of 
2006 identifies the Coast Guard as an agency that NOAA should 
coordinate with to address marine debris issues. To date, the 
Coast Guard has been fully engaged with NOAA in support of 
marine debris monitoring and tracking to ensure the safe 
navigation of shipping and to protect the marine environment.
    Coast Guard actions in support of NOAA depend on the type 
of debris. The Coast Guard, as the Federal on-scene coordinator 
for the coastal zone, will lead removal actions under the 
National Contingency Plan for any debris that poses a threat 
via potential oil or hazardous substance to the environment.
    The Coast Guard may also develop and issue broadcast notice 
to mariners and advise vessel traffic of potential hazards to 
navigation. The service also has the authority to destroy these 
hazards for navigation to sea to make sure that we are 
protecting lives and preserving property.
    If debris creates a hazard to navigation in navigable 
waters or channels, the Coast Guard typically works with the 
Army Corps of Engineers, the lead Federal agency for all 
obstructions determined to be in federally-maintained navigable 
channels or waterway to address the matter.
    Coast Guard resources and personnel may also be requested 
by NOAA to help with identifying, tracking, and monitoring 
debris by conducting overflights such as those conducted over 
Montague Island with NOAA representatives on board.
    The Coast Guard and NOAA actively work and plan together at 
all levels at both agencies.
    At the national level, the Coast Guard participates in bi-
weekly interagency conference calls hosted by NOAA to provide 
strategic interagency coordination, awareness, and information-
sharing. At the regional and local level, with the Coast Guard 
Pacific area, the 13th district, the 14th district, and the 
17th district are all actively engaged with all partners.
    The Coast Guard and NOAA recently coordinated 10 
interagency public meetings in Oregon to provide information on 
agency authorities and capabilities. Similar meetings are 
planned for Hawaii and California in coming months. We also 
participated in an interagency marine debris workshop in 
Washington State to support Washington State's drafting of a 
marine debris contingency plan.
    The Coast Guard's recent sinking of the derelict fishing 
vessel provides an excellent example of how we use our 
authorities and assets to address the challenges associated 
with marine debris. Several weeks ago, the service began 
tracking that fishing vessel, which was originally sighted by 
the Canadian Coast Guard. Our airplane crews deployed data 
marker buoys and conducted daily overflights to track the 
vessel. We used this information to notify mariners of the 
vessel's position via broadcast notice to mariners.
    The derelict vessel's projected path would take it near the 
approaches to Dixon Entrance, a waterway where approximately 
800 commercial transits, including tankers, occurred in the 
preceding 6 months. The vessel's condition, location, and 
projected track made it a serious threat to the safe navigation 
of other vessels in the vicinity. The Coast Guard deemed the 
derelict vessel to be a hazard to navigation, and on April 5, 
the Coast Guard cutter ANACAPA successfully sank the ship at 
sea to ensure the safety of navigation.
    Having been the captain of a ship like ANACAPA nearly 20 
years ago, I was very proud of their ability to perform this 
mission. As I tell others, we save lives, we save the 
environment, and in this case we saved the supply chain so 
vital to the economic strength of the Nation that includes 
putting fuel and food on our tables. It could have been 
disrupted by the damage that that ship might have caused.
    The Coast Guard will continue to work closely with NOAA to 
address the potential navigation hazards of marine debris and 
respond to any substantial pollution threats or hazards to 
navigation.
    Thank you and I look forward to answering any questions you 
may have.
    [The prepared statement of Admiral Thomas follows:]

     Prepared Statement of Rear Admiral Cari B. Thomas, Assistant 
             Commandant, Response Policy, U.S. Coast Guard
Introduction
    Good morning Mr. Chairman and distinguished members of the 
Subcommittee. I am pleased to have this opportunity to discuss with you 
the Coast Guard's roles and authorities to protect U.S. waters and 
shorelines from the potential impacts of marine debris created during 
the 2011 Japan Tsunami.
Summary
    The Coast Guard, as a member of the Interagency Marine Debris 
Coordinating Committee (IMDCC) supports the National Oceanic and 
Atmospheric Administration (NOAA) in NOAA's roles as the Chair of the 
IMDCC and the lead agency for conducting research, monitoring, 
prevention, and reduction activities for marine debris.
    The Marine Debris Research, Prevention and Reduction Act of 2006 
identifies the Coast Guard as one of the agencies that NOAA should 
coordinate with to address marine debris issues like those caused by 
the 2011 Japan Tsunami. The Coast Guard is supporting NOAA's marine 
debris monitoring and tracking efforts to ensure safe navigation for 
shipping and to protect the marine environment by actively monitoring 
for debris that would create a potential hazard to navigation or 
present a substantial threat of pollution.
Coast Guard Authorities Related to Marine Debris
    Coast Guard actions in support of NOAA are based on the type of the 
debris. While NOAA is the lead Federal agency for marine debris and the 
Coast Guard supports NOAA, there are certain instances in which Coast 
Guard authorities result in the Coast Guard taking on specific roles. 
In cases where debris poses a potential oil or hazardous substance 
threat to the environment, the Coast Guard, as the Federal On Scene 
Coordinator (FOSC) for the Coastal Zone, will lead removal actions 
under the National Contingency Plan (NCP).
    The Coast Guard may also develop and issue Broadcast Notice to 
Mariners (BNMs) to advise vessel traffic of potential hazards to 
navigation. In certain circumstances the Coast Guard may destroy or 
sink a hazard to navigation.
    For instance, in late March the Coast Guard began tracking the 
derelict 200-foot unmanned and unlit Japanese fishing vessel RYOU-UN 
MARU after it was sighted by the Canadian Coast Guard. The Coast Guard 
deployed data marker buoys and conducted daily over-flights to monitor 
the position of the vessel. The Coast Guard then conveyed this 
information to mariners via BNMs transmitted over marine VHF radio.
    When the vessel entered the U.S. Exclusive Economic Zone on 
Saturday March 31, 2012, it was drifting west northwest in a location 
approximately 170 nautical miles southwest of Sitka, Alaska. The drift 
of the vessel brought it toward the approaches to Dixon Entrance, 
Alaska, a waterway where approximately 800 transits, including those of 
tank vessels, occurred in the preceding six months. The vessel's 
condition, location, and projected track, made it a serious threat to 
the safe navigation of other vessels in the vicinity. The Coast Guard 
consulted with the Department of State to ensure that any action would 
not have adverse international implications and ultimately deemed the 
RYOU-UN MARU a hazard to navigation. As a result, the Coast Guard 
Cutter ANACAPA successfully sank the RYOU-UN MARU at sea on April 5, 
2012 to ensure the safety of navigation.
    Additionally, the Coast Guard frequently works with the U.S. Army 
Corps of Engineers (ACOE) to manage debris that creates a hazard to 
navigation in navigable channels or waterways. ACOE is the lead Federal 
Agency for all obstructions determined to be in federally maintained 
navigable channels and waterways. All other types of simple debris that 
do not pose a pollution threat or a hazard to navigation would be 
managed by state, local, or tribal jurisdictions.
    Coast Guard resources and personnel may also be requested by NOAA 
to support NOAA's mission of debris monitoring and tracking. For 
example, the Coast Guard has conducted several over flights with NOAA 
representatives onboard to help identify debris in locations such as 
Montague Island, Alaska.
Operational Planning and Coordination
    At the national level, NOAA has overall lead for tracking and 
reporting on the status and trajectory of marine debris. The Coast 
Guard further supports NOAA by participating in bi-weekly interagency 
conference calls, hosted by NOAA, to provide strategic interagency 
coordination, awareness, and information sharing.
    At the regional and local levels, the operational commanders of 
Coast Guard Pacific Area, the Thirteenth District in the Pacific 
Northwest, the Fourteenth District in Hawaii, and the Seventeenth 
District in Alaska are actively engaged with other Federal, state, 
local and tribal partners to provide a common operational picture and 
alignment of responsibilities. The Coast Guard is also currently 
working with NOAA to develop a public outreach and awareness 
communication strategy. As part of this outreach effort, the Coast 
Guard and NOAA recently coordinated 10 interagency public meetings in 
Oregon to provide information on agency authorities and capabilities in 
regards to tsunami debris. Last month, the Coast Guard also 
participated in an interagency Marine Debris Workshop in Washington 
State to begin drafting a Washington State Japan Tsunami Marine Debris 
Contingency Plan. According to NOAA, similar meetings are planned for 
Hawaii and California in the coming months.
Conclusion
    The Coast Guard continues to work closely with NOAA to address the 
potential impacts of marine debris and respond to substantial pollution 
threats or hazards to navigation. As with any preparedness activity, 
these efforts will continue to require a whole of community and a unity 
of effort across all levels of government.

    Senator Begich. Thank you very much.
    We will start with 5-minute rounds, but the way I like to 
do the Committee, each Member will have an opportunity to do 5 
minutes, but we sometimes will interject with each other 
because we are small enough here. But we only have a limited 
time today.
    But let me first say my observation here, and then I have 
some specific questions.
    We are going to do a lot of planning, a lot of discussions, 
a lot of meetings, but what the reality is communities are 
fearing that the Federal Government will not respond to what is 
really needed, which is cleanup. If this was a one-time event 
all at once, we would declare it an emergency and we would be 
on the ground like that. But this is going to be a slow drag of 
stuff for who knows how long which will impact.
    So I guess first, Mr. Kennedy, you had mentioned--I have 
several questions, but I want to go to your comments. You said 
there will be a need for significant funds, but states are 
going to be responsible. To be very frank with you, it is 
somewhat frustrating to hear that statement because the role of 
the Federal Government in emergencies is to assist states, not 
just say it is your responsibility, good luck, because that is 
not acceptable. I understand you are having discussions with 
them and so forth, but do you think the Federal Government has 
a role to partner and put some hard cash on the table?
    I mean, monitoring for the next 2 years, it will be easy to 
monitor because there will be a pile of junk piled up that we 
will say, well, it is there. But that is not the plan. That is 
not a plan. That is just more studies about what might happen 
after the fact. I think what we are anxious for is what are we 
going to do to prevent a lot of this starting to come ashore.
    So can you give me some more commentary on what NOAA's role 
should be, and do you have the funds to do it, and why are we 
not stepping forward and saying we are going to develop plans 
of action to clean it up with the Federal Government 
participating financially and otherwise? Help me. I hear what 
you--I mean, your testimony--you read it well. I have read it. 
It is a lot of good discussions about developing long-term 
studies and drafts and so forth. But what we are hearing is it 
is here. How do we deal with it?
    First, does NOAA have a responsibility to help with the 
cleanup, not just a few grants to the small groups. I know you 
have a small budget which the President requested to cut. 
Appropriators put it back in, and they want to shift it to 
another line office which luckily the appropriators said no. So 
do you think have enough money to do cleanup? And do you think 
that is a role that----
    Mr. Kennedy. Well, to start, there was a lot in there, and 
so I will start answering and then you come back to me when I 
do not answer the way you would like.
    Senator Begich. Well, that is good. That is a good way to 
start the answer.
    Mr. Kennedy. Because I am afraid I am going to, at least in 
part, answer the way you may not like.
    First of all, we do not have the funds to mount a cleanup, 
especially in areas as remote as Alaska or some of the 
northwestern Hawaiian islands. They are certainly remote areas. 
We just do not have those funds.
    Senator Begich. Can I ask you real quickly? But you have 
authority to do it and/or partner or assign groups which you, 
for example, are giving grants to.
    Mr. Kennedy. As I understand the current Act, we do not 
have the authority to actually do the cleanup. That is not part 
of our responsibility.
    Senator Begich. But dollars that you have that flow through 
your system can go to organizations.
    Mr. Kennedy. Yes, they can and they have routinely for the 
last many years. That is a major component of what we do and we 
have invested in community-based cleanup programs throughout 
all the states that are potentially affected here. So, yes, we 
do.
    Senator Begich. Indirectly you have the ability.
    Mr. Kennedy. Indirectly we do.
    Senator Begich. But you do not have the money is what you 
are saying.
    Mr. Kennedy. I do not.
    Senator Begich. Do you know how much that would be required 
to do what is anticipated here?
    Mr. Kennedy. I do not and part of that problem is why it is 
so important to try and get a better handle on how much debris 
we have out there, where it is, and when it may come ashore is 
to be able to make that kind of an estimate. But I can tell you 
Kure Atoll, Hawaii, a small sailboat 30-feet long that we 
wanted to remove, debris, $1.2 million for that one sailboat in 
that remote area. We go out to the northwestern Hawaiian 
islands----
    Senator Begich. Why?
    Mr. Kennedy.--because of the remoteness, because of the 
logistics. You have got to have ships to get out there. You 
have got to people, and then you have got to have someplace to 
do away with it. So it varies depending on where the debris is, 
but it is incredibly expensive to do this kind of a cleanup and 
the few examples that we can give you from around the country 
where we have done a focused cleanup, especially in a remote 
area, the expenditure is just extremely high. So we cannot 
begin to touch, especially in remote areas, if there is 
substantial new amounts of debris what is going to be required 
to remove it.
    Senator Begich. Let me pause you. My time is up for my 
first, and I will ask the ranking member to go to her 
questions. Then we will kind of keep bouncing back.
    Here is the challenge. You just gave me one example. So you 
know what something costs. We do not know what you need because 
we do not know what is the overall cost because literally, to 
be very frank with you, 3 months ago, 4 months ago, whenever we 
had the budget hearing, we asked the specific question that in 
anticipation of the debris coming, have you made a low-risk, 
medium-risk, high-risk cost analysis of what this would be. And 
the answer from your administrator was no, which made no sense 
to us after a year knowing--I do not know. The tsunami did 
happen. It was coming, but no analysis, then of course nothing 
then presented to OMB as a budget request, which then of course 
we get the budget and it is not in there and actually it is a 
cut to the debris program.
    You see the dilemma here? How does that happen? And then I 
will pause and I will--I mean, this is our frustration. It is 
not like the tsunami did not happen. It happened. We know about 
it. No one questioned that it was coming our direction. We just 
did not know what level of risk. But when I asked a simple 
question of, well, did you plan for it, did you have some idea, 
because that is how you then develop your budget to prepare for 
such a thing, the answer was no.
    How do you respond to that? And maybe you cannot. Maybe 
there is no response here. Like you said, maybe it is a 
response I am not going to like, so therefore----
    Mr. Kennedy. Well, I do not have an answer that is going to 
make you happy. That is for sure. I really do not. You know, 
lots of priorities going on and a small program, and we are out 
there. We do not know what the scope is, do not have a clue. 
And I think the idea was, gee, an estimate would be extremely 
hard to come up with, but that is not a good answer.
    Senator Begich. Let me hold you here.
    Mr. Kennedy. But an awful lot of it is small program, very 
busy just trying to get our arms around what is going on, and 
the scope and magnitude of what a budget might look like I can 
tell you even low, medium, and high, to actually physically 
clean up all the debris that you might be able to identify is 
huge.
    Senator Begich. OK. Let me pause you now.
    Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman.
    Just to follow up on this issue, how much do you estimate 
of the 1.5 million tons of debris that is out there will reach 
our shores?
    Mr. Kennedy. Part of our problem--of that 1.5--and that is 
an estimate from Japan, by the way. I mean, it is not ours. We 
have had to rely on them. And looking at the types of debris, 
there is virtually no research done on marine debris in the 
ocean that would tell you if you have got 1.5 million that is 
floating and you leave it in there for a year, how much of that 
is still going to be floating and available to come ashore. We 
do not have a clue.
    We have been talking about is there any way we could go 
back and find some debris and do some research, but for the 
time being, we do not really know. And we have asked. We have 
asked in a lot of places. The National Science Foundation does 
not have a chair for marine debris. And so it is not a very 
well studied aspect and we do not know for sure.
    We certainly know that things like containers, like floats 
like we are already seeing, the high windage things that have 
been discussed and the Styrofoam, OK. But a whole bunch of that 
1.5 million was construction debris, and do 2 by 4's still 
float after a year? We are not sure.
    Senator Snowe. On the low windage--and I do not know if 
there are characteristics that you can determine and assess 
beforehand. Low windage that float at or just below the 
surface--we have no way of discerning how much there may be?
    Mr. Kennedy. We really do not at this point. In our 
modeling deliberations, we have been working pretty hard at 
trying, and again, there are no models that are generated for 
marine debris. So we are having to adapt oil spill models and 
other kinds. We are trying to work and figure out high windage 
versus the stuff that either is on the surface or subsurface is 
going to come in at a different level. That is why we are 
saying in the next couple of years because currents are going 
to drive some of that stuff that is right at the surface or 
below the surface a lot more than the winds that will drive the 
other. But again, a lot of speculation and guessing at this 
point.
    Senator Snowe. I just cannot understand why in the 
President's request, though, that there was a reduction in this 
program in terms of costs in the Marine Debris Program. From 
the beginning of its creation back in 2005, the high was a 
little more than $6 million, $6.3 million. Now we are down to 
what the President requested was $3.9 million. And $600,000 
last year was appropriated specifically for this program 
because of the tsunami. Why then would we not continue at that 
level? Why would the President not?
    Mr. Kennedy. Why would we not continue at that level?
    Senator Snowe. Continue, yes, at a higher level 
incorporating the assumption that we have an ongoing issue here 
with the tsunami debris. We are just beginning the process. It 
is not at the end of the process. We are just beginning.
    Mr. Kennedy. Well, the main answer is there are severe cuts 
across the Federal Government, certainly within NOAA, and 
decisions have to be made where you get all the cuts. And so 
that is it.
    Now, to me the Marine Debris Program started with me in its 
infancy. I think it is a very important program. We absolutely 
appreciated the ability to have that $600,000-plus because if 
we did not, we would not have been able to put even the 
attention we have tried to put on the debris program. So it has 
been very important to us and we hope we will be able to find a 
way to continue to have some resources to focus on the issue 
because it will be around for a while. But there is the 
President's budget.
    Senator Snowe. Yes, I know. I think we should be 
discriminating in terms of what is essential is a priority, and 
we should have some preplanning and some forethought involved, 
knowing that the bulk of this debris is going to occur 
presumably in 2013 and 2014. Correct?
    Mr. Kennedy. Yes.
    Senator Snowe. Do you think the bulk will occur in 2013 as 
some scientists are saying?
    Mr. Kennedy. Yes.
    Senator Snowe. You do.
    Mr. Kennedy. Potentially yes.
    Senator Snowe. So here we are facing reductions in the very 
program that is going to be essential. OK. Well, obviously, it 
does not make sense, and that is something that has to be 
remedied.
    Admiral Thomas, I wanted to ask you, do you have the 
characteristics in terms of determining the low windage items? 
Are you capable--is the Coast Guard--of making those 
distinctions?
    Admiral Thomas. So, Senator, what we do when we prosecute a 
search and rescue case, for example, is we take into account, 
because of the information NOAA provides us--what we will do is 
try and figure out what we are looking for. Are we looking for 
a person in the water? Are we looking for a boat? Are we 
looking for debris? And then how time passes, the effects of 
the winds, the effects of the current all of that has on our 
ability to search for something, how long we are going to need 
to search for.
    I had a case when I was in Miami. We were looking 3 days, 
an area about the size of Connecticut, for an 18-foot boat, we 
thought, with three men. We finally found them on the third day 
about 150 miles away from where they started. And that was, you 
know, compared to the 6,800 miles between the U.S. and Japan, a 
significant problem set because it is a very vast ocean.
    So the Coast Guard, you know, in the process of prosecuting 
our cases uses NOAA's weather to help guide our actions.
    Senator Snowe. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Kennedy, Dr. Lubchenco was here in March and she said, 
quote, it is not clear that the tsunami debris is going to have 
any kind of--is going to have a devastating impact by any 
stretch of the imagination. So is that NOAA's view? Is that 
still NOAA's view?
    Mr. Kennedy. I think the jury is still out. We have been 
doing a tremendous amount of work trying to locate any of the 
debris that would be in the ocean in where we have projected, 
modeling has projected, that that debris would be. In my 
testimony, I mentioned that we have been to every possible 
venue to try and find debris, including looking with high 
resolution satellite imagery, in quadrants where the models say 
the debris should be. We have not been able to find any debris. 
That is not to say it is not there. It is not to say we are not 
still looking.
    But I think the concern is not overreacting right now. We 
know that there are places where there is more debris ashore. 
We have seen that in Alaska. But we have been out there with 
our partners trying to identify that debris specifically as 
from the tsunami, and for the most part, we have not been able 
to do that. And so we know there is increased debris here and 
there. We have not been able to find it at sea. We know we had 
1.5 million tons that went in the water. How much of that gets 
to the other end? So I do not think we want to get overly 
alarming with anyone in that we are continuing not to have any 
evidence of major debris out there in the ocean that is going 
to come ashore. So that is, I think, more the thinking than 
that it is not an issue because if 1.5 million tons of debris 
comes ashore on our coasts, that is going to be a problem. We 
know that.
    Senator Cantwell. Well, Mr. Kennedy, I am definitely going 
to react when thousands of cans of hazardous materials wash 
ashore and they have things like rat poisoning and gas in them. 
We are going to react. So that has happened.
    And so the notion that--you said earlier to Senator Begich 
that we do not have a clue about the debris. And so I have 
heard what you just said. So have we gotten all the information 
from DOD about the satellite imaging and information we need? 
Have you requested it from NOAA? Have they responded and given 
it to you, or is there more data and information that should be 
being made available?
    Mr. Kennedy. We started with commercial and available 
satellite imagery that we had, but we have progressively gone--
I mentioned the NGA. We have progressively gone to other types 
of imagery, including classified, and are continuing to have 
discussions for further classified satellite imagery. So we are 
working down that path, and we have begun to get classified 
imagery and we are using it. In fact, we are using it to look 
in several quadrants right now to find debris. Have we done 
every satellite out there that may be generating imagery? I do 
not think so, but we are having some discussions about how we 
get to that next level right now.
    And by the way, I am certainly not suggesting that debris 
will not come ashore and that some of that may be HAZMAT. In 
fact, the first thing we did, when we started hearing about 
increased debris on Montague and some of the places in Alaska, 
is get out there with the Coast Guard to do surveys to find out 
if there is any HAZMAT in it. We are acutely aware of HAZMAT 
being an issue. It is a different kind of issue if and when we 
have hazardous materials debris come ashore.
    Senator Cantwell. Did you see the ship coming? Did you see 
the ship behind me coming? Because it is a pretty large vessel.
    Mr. Kennedy. Yes. Did we see it coming?
    Senator Cantwell. Yes.
    Mr. Kennedy. The first time we saw it is on a commercially 
chartered surveillance flight by the Canadians. We did not see 
it on satellites or any other efforts that we had underway. 
That is the first we knew about is when this commercial charter 
reported it to the Canadian authorities.
    Senator Cantwell. And is there something top secret about 
this information? Is there some reason why we cannot use all 
satellite information? Is there something that is stopping us 
from getting access to this?
    Mr. Kennedy. Some of the discussions that we have been 
having recently are that imagery is available, but do we divert 
resources looking at things that are pretty important from 
national security issues to do marine debris instead? It is 
kind of an either/or discussion we have been having.
    Senator Cantwell. I do not know if it is an either/or 
discussion, but I guarantee you we will get to the bottom of it 
because we definitely believe that academics in the Northwest 
and perhaps throughout the country can help with better 
modeling. We have seen time and time again when NOAA has the 
information and resources great modeling can happen. We have 
great modeling right now, for example, on tsunami response. If 
something happens with our Cascadia Fault, we can have 
information. We can have plans. We can get that to the local 
communities.
    So the notion that we are not getting, as Senator Begich 
said, a high, moderate, and low estimation and here are 
response plans that go with it so that we can adjust--what we 
are doing is we are getting caught off guard with this vessel 
showing up, as I said, thousands of cans of hazardous material 
showing up. And the notion that states are going to be left to 
respond is just not what we are going to do to protect our 
coastal communities.
    So I thank you for your statement on this, and I am sure we 
will have more questions.
    I see my time is up, Mr. Chairman.
    Mr. Kennedy. If I could, just one thing I wanted to make 
sure you are aware of, if you are not, that the modeling that 
we are doing is not done in a vacuum. In fact, the University 
of Washington in particular is at our table and working with us 
on models. We have been working with a number of academic 
communities throughout the West Coast and Hawaii, University of 
Hawaii model. And we are working with the local academic 
communities right now to try and make sure that we pick up 
their specific science, their models, their data so that as 
this debris--and we can begin to identify--gets closer to 
shore, we are using their models not just ours. So we are 
trying to engage them.
    Senator Cantwell. Well, if I am correct--and I will find 
out, Mr. Chairman--I think we actually used the University of 
Hawaii model at a previous hearing, not even the last one we 
had with Administrator Lubchenco, but a previous markup in the 
Committee when we were trying to make sure that your Marine 
Debris Program was not cut. And so the modeling that was used 
by the University of Hawaii showed a very, very large field of 
debris, as someone said in their statement, the size of one of 
our large western states, approaching us. So that seems to be 
something that would be hard to miss. And so hopefully we can 
get to the bottom of this about the data.
    Senator Begich. We will probably have enough time for 
another round. Let me follow up very quickly, and I want to 
make sure--you were very careful on your words. I want to make 
sure, Mr. Kennedy, I understand.
    Is there data that--you know, this ship is a great example. 
My guess is the military data probably knew this ship was out 
there. If they did not, then we have got bigger problems, to be 
frank with you. If Homeland Security and the military did not 
know the ship was this close to the United States and it was 
just floating unmanned--I doubt they did not know this. I sit 
on the Armed Services Committee, Homeland Security Committee. 
My bet is they knew.
    Are you getting the data you need? And I understand it is 
not an either/or either. I think it is a question of you 
getting access. They can still do their stuff. The military is 
never going to let you take priority, but getting access so you 
can at least observe areas that may have something of that 
size--I mean, that is big. And I literally learned about what 
was happening when I was in Seattle that day when it turned its 
course toward Alaska, and then it was a week later the Coast 
Guard took action. But you know, that is not how we should find 
debris.
    So are you getting access from the military and/or Homeland 
Security that you need in order to better modeling?
    Mr. Kennedy. We are getting access. Here is part of my 
problem. First of all, I am not the one in the middle of these 
day-to-day discussions, and they are taking place and we have 
experts on our side that are working with NGA and Defense. And 
so I want to be very measured in what I say. We are getting 
access to classified data. Are we getting access to all 
classified data? Well, I do not know. We might be. We certainly 
have had nobody admit that they saw that ship coming that we 
have been discussing this with, and I think what we know is 
that there are probably other layers of data out there that we 
may not know how to ask about.
    Senator Begich. But it could be helpful.
    Mr. Kennedy. Yes. We are in some discussions, and I do not 
want it seem that everybody has not been cooperative because I 
think, for the most part, they have. But I think part of the 
problem is NOAA stepping into this arena is one that we are not 
very familiar with and we probably do not know who all that we 
need to be talking to.
    Senator Begich. I guess we would respond that I think the 
Committee is interested in helping you get that data. There is 
a letter that Senator Cantwell and I sent a month and a half 
ago to the President saying get you this data, which we--just 
to note for the record--do not have a written response yet. But 
that's not your issue--that is the White House.
    The second thing is, has NOAA asked the National Science 
Foundation--this the RAPID program funding money that they have 
for these kind of emerging issues. Has NOAA asked for some of 
this money to help you move faster?
    Mr. Kennedy. We have had a discussion with the National 
Science Foundation about this. We used them very effectively 
with their RAPID response grants during Deepwater Horizon. They 
were very, very helpful for us there.
    Senator Begich. Exactly because that was something you saw 
right away and they jumped. But here is something that is, like 
I said, a slow drag.
    Mr. Kennedy. They got money on the ground for us on focused 
research areas.
    Senator Begich. Are they receptive?
    Mr. Kennedy. They are receptive, but as I understand it--
and again, I am not the one that had these discussions, but 
relayed to me, they were receptive but they did not feel like 
they had the funds to engage.
    Senator Begich. Let me ask on one issue I am concerned 
about and that is one of the parts of the debris is a sizable 
amount. And either one of you could answer this, and I think, 
Mr. Kennedy, you probably will be knowledgeable on this and 
that is the whole issue of plastics, Styrofoam, these items 
that, when they come ashore, they stay for a long time. They 
are not disappearing overnight. They are not going to be 
biodegradable. Tell me kind of the thought on that. As it ends 
up on the shores or in the big garbage patch--I am assuming a 
sizable amount of this--some is going to end up in the garbage 
patch or on our shores. And when I say ``ours,'' the United 
States' shores. Is that a fair statement?
    I mean, the plastics seem to be--I do not know whichever 
one wants to feel comfortable answering this. Maybe you cannot. 
But it seems like this is one of the products that is not 
sinking, not going to disappear in the water. It is going 
somewhere. Is that a fair statement? It may break down, but it 
is plastic.
    Mr. Kennedy. I think that is a fair statement. It is a fair 
statement. I mean, I do not think there is any question because 
I have spent a lot of time on remote shores in Alaska and 
everywhere----
    Senator Begich. Plastic is everywhere.
    Mr. Kennedy. It is there.
    Senator Begich. Is that a big concern, do you think? I 
mean, that kind of product, not the quantity. Let us put that 
aside for a second, but that type of product.
    Mr. Kennedy. It is a big concern, and it is one of the 
things that the Marine Debris Program has been looking at in 
general trying to research to get a better handle on the 
toxics, the biological implications, and the socioeconomic, all 
of that because this stuff is so long-lived and it is going to 
be around forever and it is going to get ingested. It is going 
to get tangled. So it is a huge problem.
    I think part of the complication with that debris and how 
it gets here is--you mentioned the garbage patch. Well, there 
are two or three garbage patches, and as you go across the 
ocean, the circulation does not just come straight across the 
ocean. It rolls and some of this stuff could be entrained there 
for a long time before it ever pops out of one of the patches.
    Senator Begich. You did lead in this, so I will close on 
this part, Admiral. And I appreciate you being here also. I 
just saw one of your new cutters, a very impressive piece of 
equipment, down at the dock here.
    The comment that Mr. Kennedy said in regards to that 
plastic is toxic. Now, I know you deal with hazardous waste. 
Does this fall anywhere into your arena or not because it is 
actually still a product, not turned into a, quote, hazardous 
waste like an oil or fuel or chemical?
    Admiral Thomas. Thank you, Mr. Chairman.
    The authorities that we have deal with oil and hazardous 
substances, and so for example, in the ship that Senator 
Cantwell referred to, what we did, when we realized that the 
owner was not going to take responsibility for that ship, is we 
opened up our oil spill liability trust fund and then sent 
divers down to close up the leakage area, then recovered the 
oil from that ship. And so that is really the procedures that 
we do.
    Senator Begich. The ship she talked about in her opening 
testimony.
    Admiral Thomas. Yes. Yes, the Deep Sea I think is the name 
of the ship, 128-foot commercial fishing vessel.
    And so the plastics would not apply in this case.
    Senator Begich. Very good.
    Let me end there. Senator Snowe?
    Senator Snowe. Do you work with coastal communities in 
terms of the potential of these hazardous materials? Is the 
Environmental Protection Agency involved?
    Admiral Thomas. Yes, Senator. The National Contingency Plan 
that was developed after the Oil Spill Act of 1990 calls for a 
framework in which then there are regional plans that need to 
be developed. There are exercises periodically that come about. 
You need to have local strategies that are refreshed and that 
include the community in the education process of what you 
would do in the event of an oil spill or in the event of a 
hazardous material release.
    Mr. Kennedy. And we probably have done 100 meetings with 
the local communities from Hawaii to Alaska and up and down the 
coast talking with them about what they might expect, what some 
of the issues are that would be associated with this, and that 
is in addition to all the planning that we have been trying to 
do with a contingency plan. So we have been on the ground all 
up and down the coast at the local level trying to make 
communities more aware.
    Senator Snowe. On the interagency communication, because I 
gather there are nine agencies or departments that are involved 
in this effort, and you have the coordinating committee for 
response to marine debris, how is that working? Is it 
responding quickly? Do you have the ability to respond quickly? 
Particularly, Admiral Thomas, does the Coast Guard if there is 
floating debris that could be a navigational hazard for 
mariners? What do you do in that instance? Does it work well 
and effectively?
    Admiral Thomas. So I will defer to NOAA because they are 
the chair. But I can say that these interagency committees--we 
do it for policy on search and rescue. Of course, we saw the 
national response team interagency group during the Deepwater 
Horizon oil spill. And so these interagency ways in which--you 
are living in limited resource times, but you need important 
work to be done. You have to bring all these agencies together.
    The Army Corps of Engineers is a truly important part of 
this process as well to make sure that those waterways can stay 
open so that the ships can keep moving in and out of the United 
States.
    Mr. Kennedy. So it has been interesting. The national level 
coordinating committee has been more of an information exchange 
and more of a do you have a resource that you ought to have as 
we discuss this.
    The real effective part of the coordinating has been going 
on in the regions. And we have had tremendous participation by 
most of the Federal agencies, routinely EPA, Coast Guard, 
different manifestations of DOI, from MMS to Parks and what 
have you. So the real strength has been at the regional level, 
and my team has repeatedly commented on how people--and that is 
again all the Federal family, but then State and local--have 
been stepping up to be engaged in the region.
    And of course, part of the issue here is we have tremendous 
monuments, parks, all of which are going to be affected by 
marine debris just like anything that comes ashore in a state-
owned part of the coast. And so all of them have to be prepared 
too. So it is not just ultimately the states that have issues.
    Senator Snowe. You said, Mr. Kennedy, in your testimony, 
that with respect to contingency planning, it is well underway 
in Hawaii and Washington, but the process is yet to start in 
Oregon and California and Alaska. How long does that process 
and planning require?
    Mr. Kennedy. What it requires is a complete willingness of 
all the appropriate parties, and that is why we kind of 
emphasized that in the testimony. You have got to have 
everybody want to be at the table to actually then put the 
workshop together and develop it. And so there have been 
various states of interest and organization that have been 
required to put these together, and that is why these others 
are still evolving.
    But what we have been able to do is kind of develop now a 
pretty standard protocol as a basis for the uniqueness of each 
region and we are using that protocol. So it includes 
everything from getting together to talk about within a region, 
who are the Federal and State and local entities that need to 
be engaged. Who would you call if you started to have debris? 
What would they be looking for? What are some of the specific 
issues? How are we going to look and make sure we have 
radiation under control? If there is HAZMAT, how are we going 
to make sure we get the Coast Guard and the State folks? All of 
that is part of a package that we develop. It has just been a 
little slower to evolve getting all the appropriate parties to 
the table in some of those states.
    Senator Snowe. Is there a recognition in these states 
across the board about the potential for the magnitude of this 
problem? Does it vary?
    Mr. Kennedy. I think it varies a little, but again, I do 
not do this day to day. So I would defer. But certainly we know 
that Alaska and Washington in particular are very interested. 
We know that. And the others know that they are within the 
realm of potential impact, but Washington and Alaska and Hawaii 
for that matter, we know very clearly they have interest.
    Senator Snowe. Thank you.
    Senator Begich. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    This is the chart that we had gotten from the University of 
Hawaii and it shows the migration of millions of tons of 
tsunami trash basically making a good trajectory right toward 
the West Coast. And you can see by the size of the marine 
debris field that we are talking about large-scale debris. So 
when you say NOAA is looking and you do not see anything and 
then you are working with partners, this is what your partners 
are coming up with.
    So I hope that after today, we can get the information, get 
it to these partners, and come up with, again, some assessments 
about really what we are doing because when our constituents 
see this, when they go online and they see this, they are very 
concerned. And so I think we have to----
    Which brings up one very basic point which is we have --we 
had wanted, Mr. Chairman, one of our local communities' mayors 
to be here. But I think because of the scheduling of the 
Committee we could not accommodate a second panel.
    But one of the things is that 911 operators want to know 
what to tell people when they are called about this marine 
debris. So when somebody calls and says, well, we see, you 
know, cans, we see personal belongings, we see Styrofoam, these 
local communities have said they have tried to get an answer 
from NOAA about what 911 operators are supposed to tell people. 
So what are 911 operators supposed to tell people?
    Mr. Kennedy. I cannot give you specifically what they are 
supposed to say, but that has been part of the discussion as we 
have worked this issue in most of the states. It is certainly 
part of the discussion that has been in the contingency plan 
development. We obviously need to educate people better, but I 
think that has been part of what has been covered. So I cannot 
give you the specifics, and we will certainly get you something 
for the record and make sure it is--but, you know, we are 
working with the local responders on this.
    And by the way, the University of Hawaii is one of the 
consortium of modeling organizations that is working with us on 
the model that we are updating every 2 weeks. Did we get one of 
these around to you folks? OK. So I do not think we have 
competing models. I think we have tried to make sure that we 
have gotten anybody that is involved in this and has expertise 
at the table to develop this model, at least as a consultant.
    Senator Cantwell. Well, Long Beach is a very beautiful part 
of our state. I wish we had a map of our state right now 
because you would see that it is the very exposed part on the 
coast of our state, a very large tourism area. And the fact 
that the mayor is trying to get answers is very important.
    I wanted to get to something else. I know we are out of 
time, Mr. Chairman, but another aspect of this concern is, 
obviously, our migratory fish, the tuna, the salmon. These are 
a great part of our ocean species that migrate and oftentimes 
they migrate along these paths of debris. So what do you think 
the risks are there to our tuna and salmon populations?
    Mr. Kennedy. I think you have stumped me. My fisheries 
colleagues probably need to answer that question for you. I am 
a little bit familiar with the issue. I have not heard it in 
the context of our deliberations on the tsunami debris and what 
the potential impacts are there.
    Senator Cantwell. Well, I think just with what happened 
with Deepwater Horizon, people wanted answers about what the 
impacts were going to be on those fisheries there. So, again, 
something that we hopefully will get an answer later for the 
record and we would appreciate it. Again, we just want an 
assessment if that kind of debris field is going through and 
there are migratory patterns where these species do follow 
these kind of debris fields, then what are some of the risks 
associated with it.
    So thank you, Mr. Chairman.
    Senator Begich. Thank you all very much.
    First, Admiral, thank you for your attendance. And I know 
some of us will have some more questions for the record, and I 
think we will keep it open for 10 business days for folks to 
submit questions.
    Mr. Kennedy, also thank you. And I know you probably feel 
like you have been on the hot seat and we hope you did feel 
that way.
    [Laughter.]
    Senator Begich. There is a lot of concern. I know you care 
because you were one of the originators of the debris program 
within NOAA, and I know you understand it. And my guess is--I 
will just put words in your mouth without you saying them. But 
I am sure you would like more resources to do more and more 
opportunities. There is a huge demand and this may be an 
opportunity to highlight what the needs are for the component 
of what you are doing within NOAA.
    Second, you made a comment. I want to take you up on that 
offer, and that is the issue of the low-, the medium-, the 
high-risk analysis. Probably every quarter I am going to 
probably ask this same question until we get an answer. My hope 
is that is not at a point where we are looking at these photos 
enlarged because the amount of stuff has now really piled up. 
So I hope that you can get the administration to respond on 
that issue.
    And then the last is recognizing that NOAA has a certain 
role, but I know in this situation maybe it is a re-analysis of 
how NOAA responds to these issues. And maybe it is a larger 
allocation to these NGO's that are doing incredible work and 
have been for years on cleaning up the beaches and so forth. 
But now we are in a different ball game and we will be in it 
for, as that one diagram shows there, many years. And maybe 
NOAA needs to rethink how they are approaching debris, not just 
monitoring and reporting, but a more active role because we 
have now a stream that is not just incidental. It is 
significant. So I would hope you would take that back.
    But, again, the record will be kept open for 10 business 
days for additional questions. And I have a feeling we will 
continue to have a great discussion about debris. Thank you all 
very much.
    The hearing is closed.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Chairman Begich, let me start by expressing my deep appreciation to 
you for holding a hearing on the important issue of marine debris 
resulting from the great Japanese tsunami of 2011. This tragic event 
not only caused tremendous loss of life and destruction on a historic 
scale, but also resulted in an immense volume of material being washed 
out to sea. The Japanese government has estimated that the tsunami 
initially generated as much as 5 million tons of so called ``marine 
debris'' but that, of this huge total, 70 percent is likely to have 
sunk near shore. Even removing such a large fraction, however, would 
still leave some 1.5 million tons of material that may have been 
entrained in ocean currents and begun to float across the Pacific. I 
understand that some debris has, in fact, already begun to show up 
along the Alaskan coast including a large derelict fishing vessel. This 
is in keeping with National Oceanic and Atmospheric Administration 
(NOAA) models which suggest that at least some of the debris will 
continue to arrive on our shores over the course of the next several 
years and will thus continue to pose some degree of risk to our safety, 
environment, and economy.
    As we consider this risk we must bear in mind a number of points. 
The first is that we do not know how much of the tsunami related debris 
is actually still afloat and thus cannot make an accurate prediction as 
to how much will ultimately arrive on our shores. The second is that, 
though the Japanese tsunami generated a severe and massive input of 
debris into the ocean, it was an acute event while the problem of 
marine debris is pervasive and continuous. We in Hawaii sit at the 
center of a large convergence of several ocean currents and, as a 
result, must annually remove many tons of debris from our shores. 
Finally, the Japanese tsunami may or may not result in a significant 
increase in risk associated with debris volume, but I am concerned 
about the increased risk from distinct interactions such as with the 
recently identified derelict fishing vessel. This was a vessel of 
significant size and would have caused significant damage, and incurred 
significant remediation costs, if it had grounded on any of our reefs.
    For all of these reasons, our response to the tsunami generated 
debris must be one of continued research and assessment as well of 
continued vigilance and response. I have therefore worked to secure 
increased annual support for the NOAA Marine Debris Program, in both 
the 2012 Appropriation and the Senate's current Fiscal Year 2013 
Commerce, Justice, and Science spending bill and it is also why I have 
introduced S. 1119, The Trash Free Seas Act of 2011. This bill would 
reauthorize and strengthen the Marine Debris Research, Prevention, and 
Reduction Act of 2006 and ensure continued support for both the NOAA 
and Coast Guard Marine Debris Programs. Chairman Begich, I know you are 
an original co-sponsor of S. 1119 and thank you for your support. I am 
hopeful that we can pass this bill out of the Senate in the near future 
and move on similar legislation in the House.
    In closing, I would like to note that though we consider here today 
the risk that the tsunami generated debris poses to our national 
interests, we must also be mindful that this debris is not just random 
detritus cast upon the sea, but is in fact the remnants of many 
thousands of lives and livelihoods. It is therefore incumbent on us to 
deal with this real and persistent management problem in a manner that 
acknowledges the human loss as well as the environmental threat.
    Thank you and I look forward to hearing the testimony of our two 
respected witnesses.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to David M. Kennedy
TRANSFER AND CONSOLIDATION OF MARINE DEBRIS PROGRAM
    Question 1. The President's budget request calls for the transfer 
of NOAA's Marine Debris and Estuary Restoration programs, currently 
housed in NOS, to NMFS' Office of Habitat Conservation, arguing that 
the consolidation will improve efficiencies through increased 
coordination between programs with complementary missions. The proposed 
consolidation would reduce funding for these two successful programs by 
$1.2 million. The Senate CJS bill maintains the Marine Debris Program 
in NOS and sustains past funding levels. Can you explain to me the 
reasoning for moving the Marine Debris Program to a new line office? 
It's a program with demonstrated significant success for a very small 
amount of money per year. Why disrupt the program?
    Answer. In its FY2013 budget request, NOAA proposed moving the 
Marine Debris program to the NOAA Restoration Center to streamline 
grants programs. Since 2007, approximately $1 million of the Marine 
Debris program's annual budget has been administered by the NOAA 
Restoration Center through the Community-based Restoration Marine 
Debris Removal Grants. The NOAA Restoration Center implements on-the-
ground habitat restoration projects for many different programs within 
NOAA. NOAA does not expect the proposed consolidation would change the 
core mission of the program. The program would still advance the goals 
of the Marine Debris Research, Prevention, and Reduction Act (MDRPRA), 
and NOAA expects that the streamlined grants operations would improve 
services for our stakeholders.

    Question 2. In transferring the Marine Debris Program over to NMFS, 
NOAA also requests cutting its budget by over 20 percent. Is now the 
right time to be reducing funding for this already tiny program, less 
than a year after the Japanese tsunami, particularly when the agency 
has projected impacts are likely to linger until at least 2016?
    Answer. In these times of constrained budgets, it is important that 
NOAA focus on making programs more efficient. Within the amount 
requested, NOAA expects to continue the Marine Debris Program's core 
base activities of identifying, assessing, preventing, and removing 
marine debris.

    Question 3. Considering the new proposed home for the program (the 
National Marine Fisheries Service), I'm not sure I see that's the best 
fit. While it's true that one of the significant concerns over marine 
debris is the impact on fisheries and wildlife, the Marine Debris 
Program's other responsibilities, such as mapping, identifying, and 
conducting research on the nature and impacts of debris, seem likely to 
be better met within the National Ocean Service. Would this transfer 
have happened if the Administration wasn't seeking to cut funding for 
the program?
    Answer. NOAA is proposing the consolidation of the Marine Debris 
Program into the NOAA Restoration Center to streamline grants 
activities. The goal of the consolidation would be to improve program 
effectiveness and enhance services to stakeholders. The consolidation 
of the Marine Debris Program into NOAA Fisheries would not change the 
core mission, or results of the program, which is research, prevention, 
and reduction of marine debris.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            David M. Kennedy
TRASH FREE SEAS ACT
    Question 1. Last year the Committee passed Senator Inouye's bill, 
the Trash Free Seas Act to reauthorize and update the Marine Debris 
Research, Prevention, and Reduction Act. I'm pleased to be a co-sponsor 
and am working to secure its passage in the Senate. How will passage of 
The Trash Free Seas Act help you fulfill your missions in the response 
to tsunami related marine debris?
    Answer. Since its inception, the NOAA Marine Debris Program has 
responded to the marine debris issue as mandated by the MDRPRA, by 
conducting activities to identify, assess, reduce, and prevent marine 
debris and its impacts. The Trash Free Seas Act would give the program 
clearer direction to focus on specific types of impacts and responses. 
As one example, the reauthorization bill provides guidance on emergency 
response activities. In 2005, NOAA used its authority to identify 
marine debris from Hurricane Katrina and provided scientific support to 
the U.S. Coast Guard (USCG), Federal Emergency Management Agency 
(FEMA), and Gulf States to inform debris removal operations. We are 
currently facing a similar situation with a variety of debris hazard 
preparedness and response challenges related to the Japan tsunami 
debris.
    The Act would strengthen NOAA's authority to prevent, reduce, and 
remove marine debris. If enacted, the Act would authorize NOAA to build 
upon existing efforts to prevent, reduce, and remove marine debris by 
continuing research into marine debris and its impacts, expanding 
partnerships nationally and internationally, supporting local 
communities with removal projects, and increasing efforts to educate 
the general public and industry on best practices for keeping debris 
out of the water. NOAA can also improve efforts to address marine 
debris by further investigating marine debris' impacts to our economy.
    The Act also would require NOAA to develop tools and products to 
address marine debris. While NOAA is already taking actions to develop 
and enhance these tools in response to the tsunami debris threat (e.g., 
working with satellite experts across the Federal government, academia 
and commercial sectors to test satellite imagery on controlled sample 
debris off Hawaii), the passage of the Trash Free Seas Act would 
further strengthen NOAA's emergency response role related to marine 
debris.

    Question 2. Recognizing there are many other laws also applicable 
to marine debris issues, can you identify any gaps in the authority and 
resources available to address impacts that may be felt from the 
Japanese tsunami?
    Answer. The primary responsibility for cleanup and disposal of 
marine debris is held at the State and local levels, with additional 
Federal support. The Federal government plays an important role in 
supporting State and local efforts to respond to the challenge of 
marine debris, including reducing risks to safe navigation, mitigating 
hazardous wastes and pollutants, monitoring, collecting and sharing 
data, and removing debris from Federal lands, among other measures. 
Federal agencies have various programs and authorities that allow for 
monitoring and mitigation of debris and have been engaged on the issue 
of tsunami marine debris in partnership with States and local 
governments and other stakeholders.
    These authorities, coupled with State authorities and Federal and 
State capacity to implement removal operations should be adequate to 
address even a significant marine debris impact. NOAA's authority to 
conduct removal activities is contained in the MDRPRA, which it meets 
primarily through community-based removal grants. The authority to 
remove hazardous debris, when within Federal navigable waterways and 
federally authorized navigation projects, rests with the U.S. Army Corp 
of Engineers; and with U.S. Environmental Protection Agency (EPA) and 
the USCG when containing hazardous substances, pollutants, or 
contaminants which may present an imminent and substantial danger to 
public health (per Section 104 of CERCLA), and/or oil or hazardous 
substances (per Section 311(c) (1 & 2) of CWA and amendments to OPA). 
USCG and EPA's implementing regulations for these authorities are found 
in the National Oil and Hazardous Substances Pollution Contingency 
Plan, 40 CFR Part 300.
DEBRIS TRAJECTORY
    Question 3. A recent report by NOAA suggested that debris would 
approach the West Coast of the U.S. in 2013, and yet there have already 
been reports of large debris items washing ashore along the West Coast 
linked to the tsunami. How are scientists modeling and predicting where 
debris will travel?
    Answer. To better understand where tsunami debris currently is and 
where it may wash up on shorelines, NOAA researchers are using computer 
models to identify the debris items' possible path and drift rates.
    Early modeling efforts, which helped inform NOAA's forecasts of the 
debris' general path and drift rate was based on historical ocean 
condition data. However, many variables affect where the debris will go 
and when, and there is no guarantee debris will stay on a predicted 
path. Items will sink, disperse, and break up along the way, and winds 
and ocean currents constantly change, making it very difficult to 
predict an exact date and location for the debris' arrival on our 
shores. Different items may also drift at different rates based on 
their type and composition.
    The new modeling effort focuses on integration of near-actual U.S. 
Navy HyCOM current data and NOAA blended winds data to the General NOAA 
Operational Modeling Environment (GNOME) model, which has been used in 
the past for oil spills, to ``hindcast'' rather than ``forecast'' where 
the debris has moved since the Japan tsunami. This approach uses real-
world weather and currents to update the model predictions, rather than 
projections based on historical data. In addition, previous modeling 
efforts used primarily low-windage objects, objects with a smaller sail 
area that are less affected by wind. The GNOME model includes particles 
with a range of windage values to represent diverse debris types and 
behaviors, including very high-windage estimates based on the USCG 
windage/leeway library. Based on these refinements, the GNOME model 
shows high-windage particles began arriving in the Pacific Northwest 
and Alaska in the winter of 2011/2012, but that the bulk of the debris 
is likely still dispersed north of the Hawaiian Islands. The GNOME 
model is updated with new current and wind data every month.
    Additionally, the Japanese have provided models of marine debris 
timelines and trajectories, as well as information about the type and 
quantity of debris that was carried away by the tsunami. This 
information has assisted in U.S. modeling and preparedness efforts.

    Question 4. Why aren't the models very accurate?
    Answer. Model accuracy depends on how much information is known 
versus unknown. Many variables affect where the debris will go and 
when, and there is no guarantee debris will stay on a predicted path. 
Items will sink, disperse, and break up along the way, and winds and 
ocean currents constantly change, making it very difficult to predict 
an exact date and location for the debris' arrival on our shores. 
Different items may also drift at different rates based on their type 
and composition.
    NOAA has emphasized that all modeling should be considered with 
limitations in mind. These limitations to a computer model's 
effectiveness at predicting debris location and movement include: an 
unknown quantity (by weight) of floating debris items; an unknown 
composition (by material type) of debris; unknown degradation rates of 
materials that remain floating; and no long-term forecasts of wind and 
ocean currents suitable for trajectory modeling.
    NOAA, in collaboration with other Federal agencies, is working to 
inform and improve efforts to model the movement and distribution of 
tsunami debris. In December 2011, NOAA formed a subject matter expert 
group of modelers from across NOAA line offices as well as University 
of Hawaii. This group works to share information on modeling approaches 
and data sources, and includes the leads for the University of Hawaii's 
Surface Currents from Diagnostic model, the NOAA Ocean Surface Current 
Simulator model, and the GNOME model.

    Question 5. What kind of additional data or investments would it 
take to make the models more useful in forecasting potential debris 
impacts on U.S. coastlines?
    Answer. To validate the model predictions, NOAA is working with its 
partners to gather more at-sea observations of the debris. Those 
observations are being collected by mariners sailing through areas of 
expected debris concentrations, as well as by pilots (Federal, 
commercial, and recreational) flying over the North Pacific Ocean. NOAA 
is also working with Federal and commercial partners who have access to 
satellite images to incorporate this satellite imagery into NOAA's 
ocean modeling process. NOAA is currently analyzing the results of a 
test conducted with the USCG and the National Geospatial Intelligence 
Agency to define criteria for detecting debris of different types and 
sizes using various satellite sensors and image analysis techniques. 
For example, NOAA recently led a project in Hawaii to link Unmanned 
Aircraft System observations with several satellites/sensors to verify 
the signature of floating marine debris.
COST ASSESSMENT FOR DEBRIS RESPONSE
    Question 6. Can NOAA provide a low-range, mid-range and high-range 
of costs to respond to the tsunami debris event?
    Answer. The uncertainty surrounding the nature, location and amount 
of tsunami marine debris that may approach the shoreline makes it 
difficult to estimate the potential cost of debris removal and 
disposal. Additionally, the type and accessibility of the shoreline 
will impact the cost to remove and dispose of any debris.
    Using previously funded projects, and information on projects 
funded by other groups, NOAA analyzed the range of removal and disposal 
costs that may be relevant to the tsunami debris. After considering the 
uncertainty associated with the location and type of debris, and the 
variation in costs by geographic area and shoreline type, NOAA 
estimated that it may cost approximately $4,300 per ton of debris.
    This estimate will change as we gather more information about the 
size and type of debris, and whether it is approaching remote or 
accessible areas. This estimate also does not account for the costs to 
address other related issues, such as aquatic invasive species.
    The removal and disposal of large debris, such as vessels and 
containers, are inherently much more expensive than removal of other 
types of debris. For example, it cost the Federal Government an 
estimated $1.2 million to remove a 33-foot sailboat that washed up on a 
reef in Kure Atoll--a remote island in the Papahanaumokuakea Marine 
National Monument surrounding the Northwestern Hawaiian Islands--in 
2006.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            David M. Kennedy
NOAA'S RESPONSE TO TSUNAMI DEBRIS
    Question 1. Mr. Kennedy, it has been over a year since the Japanese 
tsunami, and we still lack a detailed response plan. Furthermore, NOAA 
still does not know the size or composition of the debris. Our coastal 
communities have not received adequate direction for response efforts. 
At the March 7th NOAA Budget and Oversight Hearing earlier this year, 
Dr. Lubchenco stated: ``It's not yet clear that it's [tsunami debris] 
going to have a devastating impact by any stretch of the imagination.''
    There are reports of thousands of containers, chunks of Styrofoam, 
insulation, buoys, soccer balls, rat poison, gas cans, squid boats, and 
motorcycles in our waters and on our beaches. What is NOAA doing to 
respond and physically remove these materials from our waterways and 
beaches? If NOAA is not planning on removing these materials, what 
agency(s) are responsible?
    Answer. Since the tsunami, the Interagency Marine Debris 
Coordinating Committee (IMDCC), chaired by NOAA, has led Federal 
efforts, in collaboration with State and local partners, to ensure that 
we are prepared to respond to this multi-year problem. The Committee 
has led efforts to collect and share data, assess the debris, mitigate 
risks to navigational and public safety, and reduce possible impacts to 
our natural resources and coastal communities.
    On the Federal level, the IMDCC members, including USCG, EPA, Navy, 
Department of State, U.S. Fish and Wildlife Service, National Park 
Service (NPS), and FEMA have been meeting regularly to determine how to 
support State and local communities' clean-up efforts in a manner that 
best leverages Federal capabilities without duplicating efforts.
    The cleanup and disposal of marine debris is normally led by the 
landowner, which in some cases may be the Federal or State government 
(e.g., NPS or Oregon Department of Parks and Recreation), with Federal 
support as needed. However, the tsunami marine debris poses some unique 
challenges, and in these times of constrained budgets, impacted states 
have limited resources available to respond.
    On the State and regional levels, NOAA's and USCG's regional 
coordinators are working directly with State and local agencies in 
affected States to develop contingency plans and ensure that the most 
current information is available to them. These plans include guidance 
and protocols for the mitigation of marine debris that pose a hazard to 
navigation, substantial threat of pollution, and adverse impact to 
public safety or health.
    The USCG is responsible for addressing shoreline and at-sea debris 
that poses a hazard to navigation or is an oil or hazardous substance 
pollution risk to our EEZ, navigable waters, or adjoining shorelines. 
The EPA and applicable State agencies (e.g., the Washington State 
Department of Health) are the lead agencies on radiation monitoring.
    NOAA continues to work with Federal, State, and Local governments 
as well as nongovernmental organizations to address and respond to 
shoreline marine debris. NOAA is taking the lead on coordination of the 
overall Federal response to Japan tsunami debris, including 
dissemination of information to support the response. This includes but 
is not limited to conducting outreach to stakeholders, coordinating 
shoreline survey efforts, compiling debris sightings, using computer 
models to predict the movement of Japan tsunami debris at sea, 
coordinating satellite detection efforts, and providing scientific 
support to the USCG in their efforts to identify and mitigate hazards 
to navigation
    On July 16, 2012 NOAA announced that $250,000 in grants would be 
made available through its marine debris program to the five States 
impacted by debris from the March 2011 Japan tsunami. Alaska, 
Washington, Oregon, California, and Hawaii will receive up to $50,000 
each to use toward marine debris removal efforts. The funds were 
released to the States in August.

    Question 2. Numerous scientists have referenced observed increases 
in marine debris, and have referenced the tsunami as the likely cause. 
However, only few pieces have been confirmed to be tsunami debris. How 
do debris levels this year compare to other years? What is NOAA doing 
to assess how unmarked items can/cannot be linked to tsunami debris? Is 
it safe to say that many of the observed floats, Styrofoam, and other 
previously mentioned materials could be tsunami debris?
    Answer. Marine debris, including Styrofoam, floats, and consumer 
plastics, is an everyday problem around the Pacific Rim, and therefore 
it is difficult to determine whether any given debris item is from the 
tsunami without a unique identifier, such as a serial number.
    However, changes in debris composition over time may indicate an 
influx of tsunami debris (e.g., an increase in the amount of processed 
lumber). NOAA is conducting shoreline monitoring in order to detect 
changes in the amount and composition of debris on shorelines 
potentially impacted by tsunami debris. The monitoring projects could 
also help inform future ground-truthing of debris accumulation regions, 
which may then be applied to models. The NOAA Marine Debris Program has 
been working with partners on the West Coast, Alaska, Hawaii, and 
British Columbia to conduct shoreline monitoring using the standardized 
NOAA Marine Debris Shoreline Survey Field Guide protocol. As part of 
this project, monitoring partners are conducting monthly surveys at 
shoreline sites for a period of at least two years.
    There are numerous environmental and societal factors that affect 
shoreline debris deposition (e.g., weather, tides, currents, 
precipitation, distance to population centers), and there is very 
little historical information on ``normal'' baseline debris abundances. 
As additional monitoring data is made available, it will be easier to 
quantitatively evaluate whether an unusual amount or composition of 
debris is washing ashore as a result of the tsunami.
    These monitoring projects will eventually help NOAA evaluate the 
size of the marine debris problem, which types are most common, where 
it is coming from, and whether or not prevention efforts are working.
LOCAL COMMUNITY IMPACTS
    Question 3. Mr. Kennedy, tourism the 4th largest industry in 
Washington State. In 2009, tourism contributed over $14 billion dollars 
to Washington State's economy and supported more than 143,990 jobs. 
Many of our coastal communities are tourism hubs and susceptible to 
tsunami debris. Yet, despite NOAA outreach, many communities feel that 
they still do not have an adequate plan in place to respond to the 
debris. For example, what happens when a beach goer in Long Beach, 
Washington--a major tourism hub in my state--finds a buoy with Japanese 
writing on it. The beach goer submits the sighting to NOAA's debris e-
mail address. Then, the beach goer calls 9-1-1 to ask the obvious 
question: ``What do I do with it?''
    What are Long Beach 9-1-1 operators supposed to tell community 
members in this situation? Please include response information for 
debris like Styrofoam, personal belongings, and potentially hazardous 
materials like gas cans.
    Answer. NOAA has put together a general-guidance fact sheet to 
assist the public with proper protocols if they come across marine 
debris and potential tsunami debris: http://marinedebris.noaa.gov/info/
pdf/debrisguidelines.pdf
    NOAA encourages the public to be safe, use common sense, and follow 
general safety guidelines. If an item cannot be identified, it should 
not be touched. If it is hazardous, the appropriate authorities should 
be contacted as listed below.
    Marine debris items or significant accumulations potentially 
related to the tsunami can be reported to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="64200d170517100116200106160d17240a0b05054a030b12">[email&#160;protected]</a> with 
as much information as possible (including its location, the date and 
time the item was found, and any other relevant descriptions). It is 
important to remember that not all debris found on U.S. shorelines is 
from Japan, and NOAA is requesting that the public use discretion when 
reporting items.

        Litter and other typical marine debris items
        Examples: Plastic bottles, aluminum cans, buoys, Styrofoam
        Common marine debris types may vary by location. If safe and 
        practical, we encourage you to remove the debris and recycle as 
        much of it as possible.

        Potential hazardous materials (HAZMAT)
        Examples: Oil or chemical drums, gas cans, propane tanks
        Contact your local authorities (a 9-1-1 call; 2-1-1 in OR and 
        855-WACOAST (855-922-6278) in WA), state emergency response or 
        environmental health agency, and the National Response Center 
        at 1-800-424-8802 to report the item with as much information 
        as possible. Do not touch the item or attempt to move it. Do 
        not contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="43072a302230372631072621312a30032d2c22226d242c35">[email&#160;protected]</a> for response assistance.

        Derelict vessel or other large debris item
        Examples: Adrift fishing boat, shipping containers, docks
        Contact your local authorities (a 911 call; 211 in OR and 1-
        855-WACOAST (1-855-922-6278) in WA), or state emergency 
        response or environmental health agency to report the item. If 
        the debris item is a potential hazard to navigation, 
        immediately radio your nearest U.S. Coast Guard Sector Command 
        Center via VHF-FM Ch. 16 or 2182 MHz or notify the U.S. Coast 
        Guard Pacific Area Command at 510-437-3701. Do not attempt to 
        move or remove item.

        Mementos or possessions
        Examples: Items with unique identifiers, names, or markings
        If an item can (1) be traced back to an individual or group and 
        (2) has personal or monetary value, it should be reported to 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1f5d8c2d0c2c5d4c3f5d4d3c3d8c2f1dfded0d09fd6dec79f">[email&#160;protected]</a> NOAA will work with local Japan 
        consulates to determine if they can help return the item to 
        Japan.

    Question 4. Despite numerous NOAA outreach and planning meetings in 
and around Pacific County, communities like Long Beach still do not 
have the guidance they need from NOAA to both inform the community and 
respond to tsunami debris. What is NOAA doing to give our local 
communities the guidance they are calling for? And when is NOAA going 
to do it?
    Answer. NOAA has collaborated closely with the established 
Washington State team to address Japan tsunami marine debris through 
public outreach, public meetings and presentations. NOAA is currently 
working with a team of State and Federal representatives to finalize 
the Washington Marine Debris Response Plan, which is currently being 
revised and is expected to be finalized as a living document in mid-
September.
    As stated above, NOAA has created a general guidance fact sheet to 
assist the public with proper protocols if they come across marine 
debris: http://marinedebris.noaa.gov/info/pdf/debrisguidelines.pdf
IDENTIFYING HIGH RISK AREAS
    Question 5. Mr. Kennedy, previous research on ocean debris shows 
that currents and the geologic characteristics of beaches will 
concentrate and focus the debris. A finding I have seen shows that 
``half of debris will wash up on 10 percent of beaches.'' This tendency 
for debris to wash ashore in a concentrated manner should enable NOAA 
to identify high risk zones for tsunami debris.
    Has NOAA identified these high-risk beaches? Has NOAA evaluated the 
potential economic impact of debris in these high-risk areas? If not, 
when will NOAA do this analysis?
    Answer. Though certain U.S. shorelines receive higher 
concentrations of debris than others due to their orientation to open 
ocean as well as the influence of prevailing winds and currents, there 
is no certainty that those beaches will receive the highest 
accumulation of tsunami-related debris. One way to determine areas of 
highest concentrations of debris deposition is through knowing what 
debris is stranded on beaches now and comparing those amounts to future 
assessments of the same beaches consistently in the future. Using this 
approach, NOAA is working with Federal, State, and local partners to 
monitor shorelines on a regular basis to identify changes in debris 
deposition. These changes are important to detect because marine debris 
washes ashore in these areas every year. Therefore, distinguishing 
tsunami debris that is not clearly traceable to the event in Japan from 
the ``normal'' debris that arrives constantly requires a regular 
measurement of debris deposition. NOAA's research strategic plan for FY 
2012-2016 identifies economic impact from marine debris as a priority 
topic, but it has not evaluated the economic impact of tsunami debris 
at this time.

    Question 6. By identifying these high-risk areas, would NOAA be 
able to focus response efforts on these critical beaches, and maximize 
taxpayer dollars?
    Answer. NOAA continues to work with Federal, State, and local 
partners on State-specific contingency plans that will allow for safe 
and efficient response to debris tailored to the needs of the State and 
local partners and the conditions present in the State. NOAA has held 
contingency planning workshops in Hawaii (January 2012) and Washington 
(April 2012), which each included representation from about 50 Federal 
and State agencies, counties, non-government organizations, and 
industry. Outputs from workshops will help guide planning in other 
impacted States.

    Question 7. As we discussed at the hearing, creating response 
scenarios would allow Congress to ensure NOAA has the tools needed to 
respond. What resources, staff, and equipment would NOAA need to 
respond and remove tsunami debris in a timely manner for a high impact, 
medium impact, and low impact debris scenario?
    Answer. There are many difficulties when trying to estimate the 
potential needs associated with debris removal and disposal. The 
quantity, distribution, composition, and timing of tsunami debris on 
shorelines are unknown. Different resources, staff, and equipment would 
be needed for different situations. For example, a large amount of 
debris hitting a single location over a short period of time would 
require different resources to remove than the same amount and type of 
debris washing up in the same location over a long period of time. 
Additionally, the type and accessibility of shoreline and type of 
debris will determine the resources needed to remove and dispose of 
debris. Large debris, such as vessels and containers, will require a 
different type of removal operation, expertise, permitting 
requirements, and associated cost structure than larger amounts of 
smaller debris items. NOAA continues to work with Federal, State, and 
local partners to refine State-specific contingency plans to prepare 
for scenarios.
CLEANUP GRANTS TO FISHERMEN
    Question 8. The Marine Debris Reauthorization Act funds marine 
debris clean up grants for communities. Nonprofits, small communities, 
and fishermen apply for funds to clean up beaches. Mr. Kennedy, has 
NOAA funded tsunami debris cleanup projects through this proven grant 
program? Why or why not?
    Answer. The NOAA Marine Debris Program typically spends a 
significant portion of its base budget supporting local, community-
based marine debris removal projects that benefit coastal habitats and 
waterways. The Program provides funds to local community-based debris 
removal projects, outreach and education initiatives, and annual beach 
cleanups every year. In FY 2012, the program awarded approximately 
$875,000 to groups throughout the country, based on a competitive grant 
proposal process that has been underway since August 2011. The grant 
recipients have been notified of these awards and the funding process 
is underway. While these grant awards are not specifically focused on 
tsunami debris, this year about 42 percent of the grant funds are going 
to states that may be impacted by the tsunami debris.
    In FY 2012, Congress provided the NOAA Marine Debris Program 
additional funds for projects relating to the marine debris from the 
Japan tsunami. NOAA is spending these funds on a number of activities, 
including monitoring shorelines for tsunami debris using a standardized 
NOAA survey and to develop rapid response protocols for appropriate 
cleanup of tsunami debris. Some of these funds are going to local 
groups to recruit volunteers and run the monitoring projects. The 
purpose of this project is to acquire baseline shoreline debris 
information ahead of the potential influx of tsunami marine debris. 
Baseline debris surveys will be conducted along shorelines in Alaska, 
California, Oregon, Washington, and the main Hawaiian Islands for a 
two-year period. Results of the monitoring will help indicate when and 
where Japan tsunami marine debris is making landfall, and will help to 
inform removal operations.
    On July 16, 2012 NOAA announced that $250,000 in grants were would 
be made available through its marine debris program to the five states 
impacted by debris from the March 2011 Japan tsunami. Alaska, 
Washington, Oregon, California, and Hawaii will receive up to $50,000 
each to use toward marine debris removal efforts. The funds were 
released in mid-August.
    Federal agencies are estimated to have collectively spent more than 
$5 million in FY 2012 in response to tsunami and other marine debris 
along the U.S. West Coast and in Alaska and Hawaii. This spending is 
for activities related to monitoring, tracking, and modeling the 
tsunami debris; marine debris removal efforts; outreach; response 
coordination among Federal agencies and with States, local governments, 
and other stakeholders; as well as other assistance.

    Question 9. A number of fishermen in Washington State apply for 
this grant fund in the offseason, to stay on the job and clean up 
debris. In Alaska, many rural communities rely on this grant funding 
for needed extra income. Wouldn't expanding this grant fund to target 
tsunami debris put cleanup groups to work on tsunami debris, fast? If 
NOAA was appropriated these funds from Congress, what would the 
turnover time be before these funds could be put to use in the 
community? What does NOAA need to speed up NOAA's ability to award 
rapid response grants?
    Answer. NOAA is exploring different methods to move funds rapidly 
to communities for debris removal, should additional resources become 
available. Typically, funding is committed to external partners through 
the aforementioned grants process, or through contracts and cooperative 
agreements that require significant planning time to execute, making it 
difficult to respond quickly to dynamic local removal needs. NOAA is 
evaluating other existing grant authorities under other statutes 
including the Coastal Zone Management Act, Marine Protection, Research, 
and Sanctuaries Act, and the National Sea Grant College Program 
Authorization Act. Additional options being considered to provide more 
rapid and flexible fund distribution are 1) a mechanism to hold funds 
in a marine debris emergency response fund (similar to the oil spill 
liability trust fund under the Oil Pollution Act of 1990) and 
distribute them rapidly to State agencies through a non-competitive 
process, 2) for NOAA to contract out removal activities directly, or 3) 
to award funds to a prime contractor and then issue task orders to 
address individual problem areas.
CLEAN UP AND THE URGENCY FOR RESPONSE
    Question 10. Thousands of large pieces of Styrofoam, plastics, and 
polystyrene have washed up on our shores. Many plastics, like 
polystyrene, do not biodegrade for hundreds of years. Furthermore, 
plastics break up into little pieces the longer it sits on the beach. 
This makes it much more difficult to cleanup. These little pieces of 
Styrofoam and polystyrene can be consumed by everything from turtles, 
birds, mammals, fish, and maybe even shellfish. Mr. Kennedy, What is 
being done to get plastics and Styrofoam off the beach as soon as it 
lands? How long is the average piece of tsunami Styrofoam on the beach 
before it is picked up by NOAA?
    Answer. NOAA has initiated monitoring studies along the West Coast, 
Alaska, and Hawaii. Many of our partners are removing debris from 
beaches during each monitoring visit, in order to calculate rates of 
debris deposition. Plastics, including polystyrene, a synthetic polymer 
used to make Styrofoam, are being removed from these beaches and NOAA 
is encouraging local cleanup operations. However, NOAA itself is not 
able to directly remove all debris from all beaches, but these 
monitoring results will help guide future removal efforts by State and 
local partners.
    Determination that particular debris, such as a piece of unmarked 
plastic, was generated from the 2011 tsunami is extremely difficult. 
There is no simple way to age the plastic or determine how long it has 
been at-sea. Therefore, we are not able to estimate how many pieces of 
plastic were generated by the tsunami, how many pieces have made it to 
U.S. shores, or how long it sits on a beach before being removed.

    Question 11. Could we apply the grant program mentioned above to 
rapidly deploy community members for Styrofoam cleanup? Wouldn't this 
be a fast and cost effective way to prevent some longer term impacts to 
our natural resources?
    Answer. Debris collection and disposal grants can assist local 
communities in debris cleanup, especially on beaches with known debris 
concentrations. Despite the concern with the extreme persistence of 
plastic materials in the marine environment and its potential chemical 
impacts, there is no scientific evidence that polystyrene is more 
hazardous to wildlife or habitat than other debris materials, which may 
pose entanglement and ingestion risks or severe habitat damage. 
Therefore, rapid response is not as necessary for polystyrene as it 
would be for hazardous materials (e.g., petroleum, chemical waste, 
etc.). We recommend that removal operations concentrate on removing all 
types of debris, including but not limited to plastics, including 
polystyrene.
PROTECTED AND ENDANGERED SPECIES FUNDING
    Question 12. Mr. Kennedy, there are reports of abnormally high 
numbers of sea turtles stranding in parts of the Eastern North Pacific. 
As you may know, many sea turtles migrate across the Pacific Ocean to 
Japan, along the path of the tsunami debris. Other highly migratory 
species like tuna, salmon, seabirds, and marine mammals also travel 
along the debris route.
    What has NOAA done to assess potential impacts to turtles, fish, 
seabirds, and marine mammals? Is NOAA utilizing Endangered Species Act, 
Marine Mammal Protection Act, or other Protected Species funds to 
research impacts of debris on these valued marine animals?
    Answer. In addition to the Marine Debris Program, NOAA is also 
working through its long-standing science-based surveys of marine 
mammals and sea turtles to observe changes in population levels in the 
eastern Pacific Ocean to track changes in mortality rates of 
endangered, threatened, or depleted species listed under the Endangered 
Species Act or Marine Mammal Protection Act (MMPA). However, mortality 
directly attributable to the tsunami is very difficult to determine 
based on results of these surveys. Further, NOAA is continuing to 
monitor stranding of sea turtles in collaboration with State agencies, 
local partners, and stakeholders. Although the March 11, 2011 tsunami 
washed 19 turtles (18 green turtles and 1 hawksbill) inland, trapping 
them in areas on the islands of Hawaii, Maui, Kauai, Laysan, and 
Midway, all but one turtle was rescued and released. The one turtle 
that died was found in the lava field at Kiholo Bay on the island of 
Hawaii. No additional observations of sea turtle strandings have been 
directly or indirectly attributed to the tsunami. NOAA is employing the 
Marine Mammal Health and Stranding Response Program, a program that was 
formalized by the 1992 Amendments to the MMPA, to monitor marine mammal 
strandings. No marine mammal strandings that have been specifically 
attributed to the tsunami have been observed or reported to NOAA as of 
this date, however, the Marine Mammal Health and Stranding Response 
Program continues to work with stranding networks and entanglement 
response networks across the U.S. Pacific waters to monitor the impacts 
of gear and visible marine debris. Efforts to assess entanglements with 
and ingestion of marine debris continue with our network partners and 
identification of the gear and debris will continue over the next few 
years. Marine mammals range widely both inside U.S. waters and across 
the Pacific, thereby making them susceptible to marine debris risks 
throughout their ranges. Many marine mammals are observed entangled in 
or having ingested visible debris (i.e., tires, lines, packing straps, 
plastic bags, parachutes) annually.

    Question 13. What do we know about the potential toxic impacts of 
plastics, Styrofoam, and polystyrene? How will this extra material 
generated by the tsunami impact wildlife both at sea and on shore?
    Answer. There are three aspects that cause concern in terms of 
plastic: it is persistent in the environment and does not easily break 
down; it has the capability to travel long distances, especially 
polymers that float and have high windage; and it interacts with the 
surrounding seawater to attract contaminants from the water as well as 
release certain chemicals used in the manufacturing process. Therefore, 
the primary toxicity concern is that plastic debris may introduce 
harmful chemicals to remote locations and to organisms if the debris is 
ingested. Additional research into chemical impacts of debris is 
needed. One current study suggests a link between ingested plastics and 
increased contaminant levels (Yamashita et al. 2011), but overall it is 
very difficult to directly link plastic ingestion with increased 
contaminant loads. This field of research is in the early stages and 
most research has focused on first being able to reliably identify and 
quantify small pieces of plastic before then focusing on quantifying 
both plastic ingestion and contaminant loads in sensitive organisms.
    Past NOAA-led workshops have estimated that it is unlikely that 
current levels of plastic debris will alter the global cycling of 
chemical pollutants. Research suggests that the ability of plastics to 
affect chemical partitioning in the air and water is very low. Without 
more reliable estimates of how plastics attract and release pollutants, 
which is likely to be highly dependent on environmental factors (e.g., 
pH, temperature, organic carbon, etc.), NOAA cannot predict how 
wildlife will be affected.
    It is difficult to determine exactly how the debris generated from 
the tsunami will impact wildlife; however, we have information on 
current impacts from everyday debris. Toothed whales, dolphins, and 
turtles are known to develop intestinal problems and/or death from 
ingestion of plastic bags and other marine debris and become entangled 
in debris such as lines, clothing, or parachutes, and pinnipeds (seals 
and sea lions) are known to become entangled in many types of debris, 
from derelict fishing gear to toilet seats. Sea turtles and some whales 
are particularly vulnerable to mistaking plastic bags and bits of 
Styrofoam for prey items or incidentally ingesting them when consuming 
prey, either of which can result in death. Regardless of the source of 
debris, it is more likely that the ingestion itself of macro-plastics 
will lead to acute adverse impacts and death. The secondary impact from 
the leaching of adhered pollutants once the material has been ingested 
is less likely to have an acute effect and lead directly to mortality. 
However, the wide extent of debris (including both macro- and micro-
plastics) and the likelihood of incidental ingestion on a frequent 
basis in some areas may increase concerns about the possibilities of 
chronic effects associated with the plastics themselves. Marine debris 
is widely dispersed but may aggregate in certain areas or at certain 
water depths and pose a risk for animals feeding or swimming in those 
areas. For some critically endangered species such as the Hawaiian monk 
seal, marine debris may be a significant threat as currents may 
transport debris to important foraging habitats for these small 
populations.
    As debris approaches the coast, the risk of entanglements of or 
ingestion by individual whales, dolphins, sea turtles, and pinnipeds 
may become more apparent. In this scenario, the stranding/entanglement 
response and health assessment programs would enable quantification and 
types of impacts from examination of stranded, entangled, live captured 
and by-caught animals.
HIGH FREQUENCY RADAR COVERAGE
    Question 14. NOAA installed high frequency radar systems along much 
of the United States coastline. These radar systems measure the speed 
and direction of ocean currents. This data has important applications 
for search and rescue, fisheries modeling, oil spill response, and even 
modeling currents used to model debris trajectory. However, there is 
only one radar station installed in Washington State, leaving much of 
coast without coverage.
    Mr. Kennedy, Washington State is slated to bear the brunt of the 
debris from the tsunami; however, Washington State has poor high 
density radar coverage. Does NOAA plan to install high density radar 
along Washington's coast? Would improving our understanding of near 
shore currents improve NOAA's ability to predict beaches that would 
experience heightened debris levels?
    Answer. The President's FY 2013 Budget for NOAA's U.S. Integrated 
Ocean Observing System program supports the operations and maintenance 
of existing radars across the United States. NOAA does not plan to 
install new HF radar along the Washington coast at this time.
    While additional HF radar coverage would add to the information 
used to initialize models, it is not expected that this addition would 
directly result in an improved ability to predict debris 
concentrations. The largest source of uncertainty in models is based on 
the need for additional information on the composition and distribution 
(location) of the debris. HF radar does not have the ability to 
directly detect drifting debris, since the debris blends with the 
currents that carry it.
    HF radar provides the capability to measure currents in real-time, 
but it cannot predict currents into the future. In order to predict 
currents, real-time current data would need to be integrated into a 
forecast model which does not presently exist in operational form. NOAA 
has been informed that Oregon State University will be extending its 
near-shore model to the mouth of the Strait of Juan de Fuca by the end 
of 2012. However, even with this model or another similar model, the 
currents would only be forecast 2-3 days in advance. This short term 
forecast could be helpful for using NOAA models to create trajectories 
of individual objects, but not in predicting debris deposition across a 
wide area over a long period of time, which is an important issue for 
response planning.
    To support response planning, NOAA is working with Federal, State, 
and local partners to implement monitoring sites where standardized 
data are collected on a regular basis to identify changes in debris 
deposition. Identifying these changes is important because marine 
debris washes ashore in these areas every year. Distinguishing tsunami 
debris that is not clearly traceable to the event from ``normal'' 
debris that arrives constantly requires a consistent awareness and 
measurement of debris deposition.
DEPARTMENT OF DEFENSE DATA
    Question 15. The Department of Homeland Security has high quality 
satellite imaging data. And I understand the C.I.A. has mobilized this 
data for the scientific community in a safe and secure manner through 
the Medea Program in the past. NOAA currently collaborates with the 
Coast Guard and Department of Defense to a small degree, to obtain at-
sea debris sightings.
    Mr. Kennedy, what other cost saving collaborations have you have 
established. For example, does NOAA have an agreement with the 
Department of Defense or the Department of Homeland Security to obtain 
flyover, satellite, or other at-sea sighting data, which could help us 
better understand the tsunami debris? Has that data been made available 
to academic researchers with the appropriate security credentials? Are 
there additional data sources that would be helpful tools for NOAA's 
tsunami debris analysis?
    Answer. Prior to the Japan tsunami, there were very few attempts to 
employ satellite analysis of open ocean waters to detect and track 
floating marine debris. NOAA is working with partners in the USCG and 
the National Geospatial Intelligence Agency to define criteria for 
detecting debris of different types and sizes using various satellite 
sensors and image analysis techniques. For example, NOAA recently led a 
project in Hawaii to link Unmanned Aircraft System observations with 
several satellites/sensors to verify the signature of floating marine 
debris.
    There are many challenges associated with detecting debris on the 
open ocean, including simple constraints such as clouds that block the 
satellites view of areas of interest to more complicated constraints, 
such as knowing where to tell the satellites to focus their sensors 
over the large ocean area. NOAA continues ongoing discussions with 
Federal partners on expansion of debris detection efforts into an 
overall sampling strategy which would better inform debris modeling and 
assessment efforts.
    NOAA continues to analyze available high-resolution satellite 
imagery to better evaluate anomalies noted in recent images; however, 
there are areas where improved data access, data analysis and 
interpretation could enhance our ability to detect, track, and forecast 
the movement of tsunami debris. These areas include: imagery analysis 
support to conduct image post-processing and image interpretation; 
computer time/power to perform advanced satellite imagery analysis; and 
resources to increase the number of studies to verify satellite 
recognition of confirmed debris sightings.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                            David M. Kennedy
MITIGATING IMPACTS FROM MARINE DEBRIS
    Question. When marine debris sinks to the bottom, some might say 
out of sight, out of mind. But certain kinds of debris can destroy 
underwater habitat. Near Duluth, Minnesota, wood debris from sawmills a 
century ago is only now being removed from the St. Louis Estuary, with 
funding from the Great Lakes Restoration Initiative, the National 
Oceanic and Atmospheric Administration (NOAA) Restoration Center, and 
the State of Minnesota Legacy Amendment. This sunken debris has 
prevented fish and vegetation from reclaiming the site for over 100 
years.
    In areas where significant amounts of debris will accumulate and 
sink, either in the Great Lakes or off the West Coast, what can be done 
to prevent underwater habitat destruction?
    Answer. Environmental models predict certain accumulation zones for 
tsunami debris in waters off the West Coast. However, much uncertainty 
exists in these models and it is difficult to ground-truth them to find 
true hotspots of marine debris accumulation because observations of 
floating and sunken debris are scarce. In previous projects, sunken 
debris has been identified through means of scanning or multibeam sonar 
and has been removed using the most ecologically-sensitive methods to 
avoid further destruction of underwater habitat. Because the tsunami 
debris is currently so dispersed, we are not able to implement a 
catchment system for debris as it washes ashore and will be reliant on 
identification and removal mechanisms if debris hotspots form on the 
West Coast. In other locations that do not involve debris loads 
generated by natural hazards, NOAA and EPA focus on outreach and 
education to prevent terrestrial litter from becoming marine debris as 
the best strategy at preventing damaging impacts to habitat and marine 
species.
    The project outlined by Senator Klobuchar presents a good example 
of the benefits of removal. The removal of marine debris and 
restoration of Radio Tower Bay was one of nine habitat restoration 
projects awarded in 2010 by the NOAA Restoration Center. This project 
funds the Minnesota Department of Natural Resources to remove marine 
debris in the form of derelict pilings and historic sawmill waste and 
is expected to improve submerged vegetation and habitat for fish, 
macro-invertebrates, and other aquatic organisms within this Great 
Lakes Area of Concern. The project provides important spawning habitat 
for regionally important migratory fish species (e.g., lake sturgeon, 
walleye, and longnose Sucker) as well as other important resident 
species. Once removed, debris is not expected to re-accumulate or 
create further habitat injuries as modern sawmills are much more 
efficient and recycle most waste products. Removal and restoration 
continues, but to date approximately 146 metric tons of debris has been 
removed.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Rear Admiral Cari B. Thomas
    Question 1. Admiral Thomas, can you describe for me how the Coast 
Guard coordinates with the Army Corps of Engineers to remove marine 
debris that poses a hazard to our waterways?
    Answer. Marine debris that rises to the attention of Coast Guard 
and the Army Corps of Engineers is normally associated with an 
abandoned floating or grounded vessel. For non-Stafford Act activities, 
the Coast Guard's interactions with the Army Corps of Engineers 
regarding marine debris that create an obstruction to U.S. waterways 
are governed by a Coast Guard/Army Corps of Engineers Memorandum of 
Agreement.
    In cases where an obstruction poses a threat to navigation, 
obstructs a navigable channel, or endangers protected or sensitive 
habitat, and so long as the obstruction does not pose a pollution 
threat (or the pollution has been mitigated) the Coast Guard 
coordinates with the Army Corps of Engineers, and state and local 
program managers to address the obstruction. A joint determination that 
the obstruction poses a threat to navigation is made between the 
appropriate Army Corps of Engineers District Engineer and the Coast 
Guard District Commander. This determination is based on several 
factors, such as: location of the obstruction and depth of water; 
physical characteristics and possible movement of the obstruction; and 
commercial and recreational traffic in the vicinity of the obstruction. 
If there is a joint determination that the obstruction poses a threat 
to navigation, the threat is mitigated or removed through a number of 
possible actions: the Coast Guard may order the owner to mark it with a 
buoy if it is grounded; the Army Corps of Engineers may require the 
owner to remove the obstruction; or the Army Corps of Engineers may 
remove it themselves under their own authority.

    Question 2. Admiral Thomas, the Coast Guard plays an important role 
in preventing marine debris from entering our oceans, by inspecting 
vessels entering U.S. ports for environmental compliance so garbage 
does not enter the marine environment. Can you describe how the Coast 
Guard enforces MARPOL Annex V?
    Answer. The Coast Guard enforces MARPOL Annex V requirements during 
scheduled inspection and examinations or during targeted examinations 
if there is reason to believe there is a violation of the requirements 
found within MARPOL Annex V. The Coast Guard will examine a garbage log 
to ensure owners and operators are logging discharge of garbage, as 
well as verify proper separation and handling of garbage through visual 
inspection. The Coast Guard also questions crew members on garbage 
handling procedures to ensure they are familiar with the MARPOL 
requirements.

    Question 3. How can enforcement of MARPOL Annex V be improved?
    Answer. Working through the International Maritime Organization, 
the Parties to MARPOL Annex V recently amended it to further restrict 
the types of garbage that may be discharged overboard, and these 
amendments will enter into force on January 1, 2013. The U.S. Coast 
Guard is in the process of updating its regulations to maintain 
consistency with the changes in MARPOL Annex V. As the regulations are 
updated, the Coast Guard will examine our inspection procedures and 
evaluate ways to improve enforcement with the new regulations. 
Enforcement options available to the Coast Guard for vessels found not 
in compliance with Annex V include: notices of violation; civil 
penalties; operational controls (detaining the vessel in port or 
denying entry to U.S. waters); and criminal prosecution.

    Question 4. Rear Admiral Thomas, although this is not the central 
topic of today's hearing, I wanted to take this opportunity to ask the 
Coast Guard a few questions about discharges by vessels of garbage and 
other discharges incidental to the normal operation of vessels. In 
addition to the marine debris that can be generated by tsunamis when 
they hit coastal communities, ocean-going vessels also are a 
significant source of garbage and debris. This Committee held a hearing 
in March, at which the Coast Guard testified, on regulation and 
oversight of the cruise line industry. In preparing for that hearing, I 
was shocked to learn that an estimated 25 percent of the plastic 
bottles and other garbage we find in our oceans is generated by cruise 
ships. The Act to Prevent Pollution from Ships, and regulations issued 
by the Coast Guard thereunder implementing MARPOL Annex V, prohibit the 
discharge of garbage within 3 nautical miles of our shores. They also 
impose a more stringent no-discharge zone of 12 nautical miles for 
certain types of garbage, and prohibit any discharge of plastic. 
Notwithstanding these prohibitions, the EPA in its 2008 Cruise Ship 
Discharge Assessment Report indicated that discharges of solid waste 
and plastic from cruise ships still occur.
    From the Coast Guard's perspective, are our current laws governing 
the discharge of garbage from cruise ships and other vessels adequate 
to address this problem?
    Answer. The Act to Prevent Pollution from Ships gives the U.S. 
Coast Guard the authority to develop regulations and enforce MARPOL 
Annex V, which regulates the discharge of garbage (including plastics) 
from ships. The act applies to all U.S. flag ships anywhere in the 
world and to foreign flag vessels operating in waters under U.S. 
jurisdiction or while at a port or terminal under U.S. jurisdiction. 
The act also establishes regulations for operational discharges of 
wastes from vessels. From the perspective of the Coast Guard's vessel 
inspection and Port State Control programs, this law governing the 
discharge of garbage from cruise ships and other vessels is adequate.

    Question 5. Is the IMO looking at this issue at all, or are the 
current requirements under Annex V the best we can do?
    Answer. Parties to MARPOL Annex V recently examined these issues, 
and adopted amendments to the Annex through the International Maritime 
Organization's Marine Environmental Protection Committee (MEPC) in July 
2011. These amendments will enter into force on January 1, 2013.
    Before these Annex V amendments, discharge into the sea of 
substances defined as ``garbage'' was allowed unless specifically 
limited or prohibited under Annex V. Among other technical changes, 
these Annex V amendments reduce the types of ``garbage'' that can be 
discharged into the sea by establishing a general prohibition on 
discharges of garbage into the sea with limited exceptions. Examples of 
these exceptions are, in rough terms, that food wastes processed by a 
grinder may be discharged in most areas at least three miles from land; 
that unground food wastes may be discharged in most areas at least 12 
miles from land; and that cargo residues not harmful to the environment 
may be discharged in most areas at least 12 miles from land.
    Thus, Annex V as amended will continue to greatly restrict the 
discharge of garbage into the sea. Annex V will also continue to 
require garbage management for ships. The Act to Prevent Pollution from 
Ships authorizes the Coast Guard to implement and enforce Annex V, 
including any amendments to it that enter into force for the United 
States. The domestic regulations implementing Annex V are located in 33 
C.F.R. Part 151, subpart A. As the United States is a Party to MARPOL 
Annex V, we are currently revising these domestic regulations to 
reflect the recent Annex V amendments.

    Question 6. Rear Admiral Thomas, beyond discharges of solid waste 
by vessels, many of us on this Committee are very troubled by the 
current regulatory framework governing discharges of ballast water and 
other discharges incidental to the normal operation of vessels, such as 
bilge water, deck run-off, and so forth. As a result of environmental 
litigation in the mid-2000s, in which a roughly 35 year old regulatory 
exemption for vessels from certain requirements of the Clean Water Act 
was overturned, we now have a confusing, duplicative, and inconsistent 
patchwork in which the Coast Guard, EPA, and individual States are all 
regulating these same vessel discharges in highly inefficient and 
sometimes even contradictory ways. Wouldn't it be better for the marine 
environment, maritime commercial interests, the Coast Guard as 
America's Federal maritime law enforcement authority, and most of all 
the American taxpayer, to have a single, simple, clear, and consistent 
framework for the regulation of all discharges that are common to the 
normal operation of vessels?
    Answer. The Coast Guard believes the current statutory framework 
for ballast water discharges can be effective in minimizing the risk of 
introduction and spread of aquatic nuisance species via ballast water 
discharges. The Coast Guard continues its work with the EPA and the 
States to ensure that the agencies' efforts to manage such discharges 
under our current authorities are as coordinated, consistent, and 
transparent as possible.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Rear Admiral Cari B. Thomas
    Question 1. Admiral Thomas, some small percentage of the debris is 
likely to be hazardous substances. Even though it is a small 
percentage, a small percent of 1.5 million tons is still a lot of 
hazardous substances. Does the National Contingency Plan consider these 
sorts of high volume but highly-dispersed events that this debris is 
likely to present?
    Answer. Yes. The Coast Guard Federal On Scene Coordinators, in 
coordination with Federal, state, local and tribal officials as well as 
the private sector, have established Area Committees around the entire 
U.S coastline. These Area Committees plan strategies for effective 
government and private sector response to incidents of various types 
whenever they occur in support of the National Contingency Plan. The 
Area Committees are supported at the regional level by 13 Regional 
Response Teams (RRTs). These Federal, state and tribal bodies support 
detailed area plans and are able to cascade in additional resources if 
the capability of one or more local areas is exceeded.

    Question 2. How does the Coast Guard execute its Federal On-Scene 
Coordination roles in such events, where many hazardous substances are 
highly dispersed, and in remote areas?
    Answer. The Coast Guard's execution of its Federal On Scene 
Coordinator (FOSC) role is outlined in the National Contingency Plan 
(NCP) and does not change based on remote location or quantity of 
hazardous substances. As the pre-designated FOSC in the Coastal Zone, 
the Coast Guard coordinates (and when appropriate directs) spill 
response resources to locations in accordance with Area Contingency 
Plans (ACPs). ACPs, which represent pollution response planning at the 
local level, contain site-specific response strategies, identify areas 
of economic and environmental importance, and contain a description of 
the equipment, personnel, and resources available for effective removal 
of oil and hazardous substances.

    Question 3. What should people do if they find suspected hazardous 
substances in the maritime environment?
    Answer. If someone finds a suspected hazardous substance, either on 
land or in the maritime environment, they should not touch, handle, or 
make any attempt to move or clean it up. They should immediately 
contact the National Response Center (1-800-424-8802 or via the 
Internet at http://www.nrc.uscg.mil/nrchp.html) or 9-1-1. Since the 
1970s the National Response Center (NRC) has served as the Nation's 
emergency call center for reporting actual or suspected hazardous 
material spill incidents anywhere in the U.S. Located at the U.S. Coast 
Guard Headquarters, the NRC is a 24 hr X 7 day a week operation. When 
it receives a call, the NRC immediately provides notification to the 
appropriate U.S. Coast Guard and Environmental Protection Agency 
response officials that are closest to the location of the reported 
incident. These officials then coordinate with management officials to 
affect response.

    Question 4. Will the Coast Guard be able to respond to all of these 
reports of hazardous substances in remote areas? Do you have the 
resources to do that?
    Answer. Yes. Remote areas are very challenging from a response 
perspective, often requiring an interagency solution to prevent and 
mitigate the risks.
    As Federal On-Scene Coordinator (FOSC) in the coastal zone, the 
Coast Guard, in coordination with Federal, state, local and tribal 
officials and the private sector, plans for such responses locally, 
regionally, and nationally. In the United States, response to hazardous 
materials incidents is a shared government and industry capability. 
Federal, state, and local responders are equipped and trained to 
respond to and mitigate immediate threats to human health and safety by 
securing the source, if possible, and evacuating the population at 
immediate risk.
    The Coast Guard, as FOSC, in cooperation with state, local, and 
tribal officials, will ensure the immediate threat is mitigated. If 
there is no responsible party immediately available to fund the 
response, the FOSC will access the Comprehensive Emergency Response, 
Compensation, and Liability Act (CERCLA) fund to hire private sector 
response organizations for cleanup. The Coast Guard has Basic Ordering 
Agreements in place with private sector response organizations 
nationwide to ensure our capability to respond.
    The Coast Guard has access to several special teams under the 
National Response System, including the National Strike Force. The 
Coast Guard also has aircraft, boats, and cutters that are positioned 
to assess and respond in remote areas.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
